APPENDIX

TABLE OF APPENDICES
Appendix A
Order, United States Court of Appeals
for the Second Circuit, Jander v. Ret.
Plans Comm. of IBM, No. 17-3518
(June 22, 2020) ............................................ App-1
Appendix B
Opinion, Supreme Court of the United
States, Ret. Plans Comm. of IBM v.
Jander, No. 18-1165 (Jan. 14, 2020) ........... App-4
Appendix C
Opinion, United States Court of Appeals
for the Second Circuit, Jander v.
Ret. Plans Comm. of IBM, No. 17-3518
(Dec. 10, 2018) ........................................... App-13
Appendix D
Order, United States Court of Appeals
for the Second Circuit, Jander v. Ret.
Plans Comm. of IBM, No. 17-3518
(Jan. 18, 2019) ........................................... App-37
Appendix E
Opinion & Order, United States District
Court for the Southern District of New
York, Jander v. Ret. Plans Comm. of IBM,
No. 15-cv-3781 (Sept. 29, 2017) ................ App-39
Appendix F
Opinion & Order, United States District
Court for the Southern District of New
York, Jander v. Ret. Plans Comm. of IBM,
No. 15-cv-3781 (Sept. 7, 2016) .................. App-58

ii
Appendix G
Relevant Statutory Provisions .................. App-75
29 U.S.C. §1104(a) .............................. App-75
29 U.S.C. §1107 (a), (b), (d) ................ App-76
29 U.S.C. §1108(c)(3) .......................... App-80
29 U.S.C. §1109(a) .............................. App-80
29 U.S.C. §1132(a)(2)-(3) .................... App-80

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
No. 17-3518
________________
LARRY W. JANDER, and all other individuals similarly
situated, RICHARD J. WAKSMAN,
v.

Plaintiffs-Appellants,

RETIREMENT PLANS COMMITTEE OF IBM, RICHARD
CARROLL, ROBERT WEBER, MARTIN SCHROETER,
Defendants-Appellees,
INTERNATIONAL BUSINESS MACHINES CORPORATION,
Defendant.
________________
Argued: Sept. 7, 2018
Decided: Dec. 10, 2018
Vacated: Jan. 14, 2020
Reinstated: June 22, 2020
Filed: June 22, 2020
________________
Before: Katzmann, Chief Judge, Sack and Raggi,
Circuit Judges.
________________
ORDER
________________

App-2

PER CURIAM:
In this case, plaintiffs, participants in IBM’s
employee stock option plan, allege that the plan’s
fiduciaries breached their duty of prudence under the
Employee Retirement Income Security Act of 1974
(“ERISA”). The district court granted defendants’
motion to dismiss, Jander v. Ret. Plans Comm. of IBM,
272 F. Supp. 3d 444 (S.D.N.Y. 2017), and this Court
reversed and remanded, Jander v. Ret. Plans Comm.
of IBM, 910 F.3d 620 (2d Cir. 2018). The Supreme
Court then granted defendants’ petition for certiorari,
Ret. Plans Comm. of IBM v. Jander, 139 S. Ct. 2667
(2019) (mem.), which presented the question whether
a plaintiff can state a duty-of-prudence claim based on
“generalized allegations that the harm of an inevitable
disclosure of an alleged fraud generally increases over
time,” Petition for Writ of Certiorari at i, Ret. Plans
Comm. of IBM v. Jander, 140 S. Ct. 592 (2020) (No.
18-1165). The Supreme Court also granted the
government’s motion to participate in oral argument
as an amicus curiae in support of neither party, so that
it could present the views of the Department of Labor
and the Securities and Exchange Commission. Ret.
Plans Comm. of IBM v. Jander, 140 S. Ct. 398 (2019)
(mem.).
After hearing oral argument, the Supreme Court
vacated the judgment of this Court and remanded for
further proceedings. See Ret. Plans Comm. of IBM v.
Jander, 140 S. Ct. 592, 595 (2020) (per curiam). In its
opinion, the Supreme Court explained that
defendants’ and the government’s post-certiorari
arguments primarily addressed matters that fell
beyond the question presented to the Supreme Court,

App-3
and that had not been raised before this Court. So that
this Court could “have an opportunity to decide
whether to entertain these arguments in the first
instance,” the Supreme Court “le[ft] it to the Second
Circuit whether to determine their merits, taking such
action as it deems appropriate.” Id.
On remand, we invited the parties to submit
supplemental briefs regarding the appropriate
disposition of this appeal, including whether we
should consider any arguments not previously raised
before this Court. We also invited the government to
submit a supplemental brief as an amicus curiae. The
parties and the government have now submitted
supplemental briefs, as have amici curiae the
Chamber of Commerce of the United States of
America, the Securities Industry and Financial
Markets Association, the ERISA Industry Committee,
and the American Benefits Council.
Having reviewed the submissions from the parties
and amici, we now reinstate the judgment entered
pursuant to our initial opinion. The arguments raised
in the supplemental briefs either were previously
considered by this Court or were not properly raised.
To the extent that the arguments were previously
considered, we will not revisit them. To the extent that
they were not properly raised, they have been
forfeited, and we decline to entertain them. See Norton
v. Sam’s Club, 145 F.3d 114, 117 (2d Cir. 1998)
(“Issues
not
sufficiently
argued
in
the
briefs . . . normally will not be addressed on appeal.”).
Accordingly, the judgment of the district court is
reversed, and the case is remanded for further
proceedings consistent with our initial opinion.

App-4
Appendix B
SUPREME COURT OF THE UNITED STATES
________________
No. 18-1165
________________
RETIREMENT PLANS COMMITTEE OF IBM, et al.,
v.

Plaintiffs-Appellants,

LARRY W. JANDER, et al.,
Defendants-Appellees,
________________
Argued: Nov. 6, 2019
Decided: Jan. 14, 2020
________________
OPINION PER CURIAM
________________
Per Curiam.
In Fifth Third Bancorp v. Dudenhoeffer, 573 U.S.
409 (2014), we held that “[t]o state a claim for breach
of the duty of prudence” imposed on plan fiduciaries
by the Employee Retirement Income Security Act of
1974 (ERISA) “on the basis of inside information, a
plaintiff must plausibly allege an alternative action
that the defendant could have taken that would have
been consistent with the securities laws and that a
prudent fiduciary in the same circumstances would
not have viewed as more likely to harm the fund than
to help it.” Id., at 428. We then set out three
considerations that “inform the requisite analysis.”
Ibid.

App-5
First, we pointed out that the “duty of prudence,
under ERISA as under the common law of trusts, does
not require a fiduciary to break the law.” Ibid.
Accordingly, “ERISA’s duty of prudence cannot
require” the fiduciary of an Employee Stock
Ownership Plan (ESOP) “to perform an action—such
as divesting the fund’s holdings of the employer’s stock
on the basis of inside information—that would violate
the securities laws.” Ibid.
We then added that, where a complaint “faults
fiduciaries for failing to decide, on the basis of the
inside information, to refrain from making additional
stock purchases or for failing to disclose that
information to the public so that the stock would no
longer be overvalued, additional considerations arise.”
Id., at 429. In such cases, “[t]he courts should consider
the extent to which an ERISA-based obligation either
to refrain on the basis of inside information from
making a planned trade or to disclose inside
information to the public could conflict with the
complex insider trading and corporate disclosure
requirements imposed by the federal securities laws
or with the objectives of those laws.” Ibid. We noted
that the “U.S. Securities and Exchange Commission
ha[d] not advised us of its views on these matters, and
we believe[d] those views may well be relevant.” Ibid.
Third, and finally, we said that “lower courts
faced with such claims should also consider whether
the complaint has plausibly alleged that a prudent
fiduciary in the defendant’s position could not have
concluded that stopping purchases—which the market
might take as a sign that insider fiduciaries viewed
the employer’s stock as a bad investment—or publicly

App-6
disclosing negative information would do more harm
than good to the fund by causing a drop in the stock
price and a concomitant drop in the value of the stock
already held by the fund.” Id., at 429-430.
The question presented in this case concerned
what it takes to plausibly allege an alternative action
“that a prudent fiduciary in the same circumstances
would not have viewed as more likely to harm the fund
than to help it.” Id., at 428. It asked whether
Dudenhoeffer’s “‘more harm than good’ pleading
standard can be satisfied by generalized allegations
that the harm of an inevitable disclosure of an alleged
fraud generally increases over time.” Pet. for Cert. i.
In their briefing on the merits, however, the
petitioners (fiduciaries of the ESOP at issue here) and
the Government (presenting the views of the
Securities and Exchange Commission as well as the
Department of Labor), focused their arguments
primarily upon other matters. The petitioners argued
that ERISA imposes no duty on an ESOP fiduciary to
act on inside information. And the Government
argued that an ERISA-based duty to disclose inside
information that is not otherwise required to be
disclosed by the securities laws would “conflict” at
least with “objectives of ” the “complex insider trading
and corporate disclosure requirements imposed by the
federal securities laws . . . .” Dudenhoeffer, 573 U.S.,
at 429.
The Second Circuit “did not address the[se]
argument[s], and, for that reason, neither shall we.” F.
Hoffmann-La Roche Ltd. v. Empagran S.A., 542 U.S.
155, 175 (2004) (citation omitted); see Cutter v.
Wilkinson, 544 U.S. 709, 718, n.7 (2005) (“[W]e are a

App-7
court of review, not of first view”). See also 910 F.3d
620 (CA2 2018). Nevertheless, in light of our
statement in Dudenhoeffer that the views of the “U.S.
Securities and Exchange Commission” might “well be
relevant” to discerning the content of ERISA’s duty of
prudence in this context, 573 U.S., at 429, we believe
that the Court of Appeals should have an opportunity
to decide whether to entertain these arguments in the
first instance. For this reason we vacate the judgment
below and remand the case, leaving it to the Second
Circuit whether to determine their merits, taking such
action as it deems appropriate.
It is so ordered.

App-8
JUSTICE KAGAN, with
GINSBURG joins, concurring.

whom

JUSTICE

Today’s per curiam vacates and remands so that
the Court of Appeals for the Second Circuit can decide
whether to consider two arguments that occupied
most of the briefing in this Court even though the
lower courts had not addressed them. I join the Court’s
opinion with two further notes.
First, the Court of Appeals may of course
determine that under its usual rules of waiver or
forfeiture, it will not consider those arguments. The
per curiam is clear that the Second Circuit is to “decide
whether to entertain” the arguments in the first
instance. Ante, at 3. If the arguments were not
properly preserved, sound judicial practice points
toward declining to address them. See, e.g., Wood v.
Milyard, 566 U.S. 463, 473 (2012) (“For good reason,
appellate courts ordinarily abstain from entertaining
issues that have not been raised and preserved”). That
is so, contrary to JUSTICE GORSUCH’S suggestion,
whether or not the issue will come back in the future.
See post, at 2 (concurring opinion).
Second, if the Court of Appeals chooses to address
the merits of either argument, the opening question
must be whether it is consistent with this Court’s
decision in Fifth Third Bancorp v. Dudenhoeffer, 573
U.S. 409 (2014). I cannot see how. The petitioners
argue that ERISA “imposes no duty on an ESOP
fiduciary to act on insider information.” Ante, at 3. But
Dudenhoeffer makes clear that an ESOP fiduciary at
times has such a duty; the decision sets out exactly
what a plaintiff must allege to state a claim that the
fiduciary breached his duty of prudence by “failing to

App-9
act on inside information.” 573 U. S., at 423; see id., at
428; ante, at 1. For its part, the Government argues
that (absent extraordinary circumstances) an ESOP
fiduciary has only the duty to disclose inside
information that the federal securities laws already
impose. See ante, at 3. But Dudenhoeffer characterizes
the relationship between ERISA’s duty of prudence
and the securities laws differently. It recognizes that
a fiduciary can have no obligation to take actions
“violat[ing] the securities laws” or “conflict[ing]” with
their “requirements” or “objectives.” 573 U.S., at 428429; see ante, at 1-2. At the same time, the decision
explains that when an action does not so conflict, it
might fall within an ESOP fiduciary’s duty—even if
the securities laws do not require it. See 573 U.S., at
428. The question in that conflict-free zone is whether
a prudent fiduciary would think the action more likely
to help than to harm the fund. See id., at 428, 430; see
ante, at 1-2. The Government candidly acknowledges
that its approach would mostly wipe out that central
aspect of the Dudenhoeffer standard. See Brief for
United States as Amicus Curiae 22. That too does not
accord with the decision. *
JUSTICE GORSUCH essays still another argument, but it
also conflicts with Dudenhoeffer. He claims that an ESOP
fiduciary can never have a duty under ERISA to make disclosures
“in their capacities as corporate officers.” Post, at 1. But
Dudenhoeffer spells out when ERISA forecloses such a duty—
when making the disclosure would conflict with the requirements
and objectives of the securities laws. See 573 U.S., at 429. Absent
a conflict of that kind, there is no categorical exclusion: The
question, stated once again, is whether a prudent fiduciary would
think the disclosure more likely to benefit than to harm the fund.
See id., at 429-430.
*

App-10
JUSTICE GORSUCH, concurring.
The gist of respondents’ sole surviving claim is
that certain ERISA fiduciaries should have used their
positions as corporate insiders to cause the company
to make an SEC-regulated disclosure. But merely
stating the theory suggests a likely flaw: In ordering
up a special disclosure, the defendants necessarily
would be acting in their capacities as corporate
officers, not ERISA fiduciaries. Run-of-the-mill ERISA
fiduciaries cannot, after all, order corporate
disclosures on behalf of their portfolio companies. Nor
do even all corporate insiders have that authority.
These defendants (allegedly) had the opportunity to
make a corrective disclosure only because of the
positions they happened to hold within the
organization. So while respondents are correct to note
that insider fiduciaries are subject to the “same duty
of prudence that applies to ERISA fiduciaries in
general,” Fifth Third Bancorp v. Dudenhoeffer, 573
U.S. 409, 412 (2014), at bottom they seek to impose an
even higher duty on fiduciaries who have the authority
to make or order SEC-regulated disclosures on behalf
of the corporation. Because ERISA fiduciaries are
liable only for actions taken while “acting as a
fiduciary,” it would be odd to hold the same fiduciaries
liable for “alternative action[s they] could have taken”
only in some other capacity. Compare Pegram v.
Herdrich, 530 U.S. 211, 225-226 (2000), with
Dudenhoeffer, 573 U.S., at 428.
Despite its promise, this argument seemingly
wasn’t considered by lower courts before the case
arrived in our Court. In these circumstances, I agree
with the Court’s per curiam that the better course is

App-11
to remand the case to allow the lower courts to address
these matters in the first instance. But the payout of
today’s remand is really about timing: By remanding
rather than dismissing, we give the lower courts the
chance to answer this important question sooner
rather than later. To be sure, on remand respondents
might try to say this argument was waived or forfeited
in earlier motions practice. See ante, at 1 (KAGAN, J.,
concurring). But following respondents down that
path would do no more than briefly delay the task at
hand. The argument before us involves a pure
question of law, raised in the context of a motion to
dismiss. If it isn’t addressed immediately on remand,
it will only prove unavoidable later, not just in other
suits but at later stages in this very litigation.
Of course, today’s remand would be pointless if
the argument before us were already foreclosed by
Dudenhoeffer, as JUSTICE KAGAN suggests. Ante, at
2-3, n. But I do not believe our remand is a wasted
gesture, because I do not read Dudenhoeffer so
broadly. Dudenhoeffer held that an ERISA plaintiff
must plausibly allege “an alternative action that the
defendant could have taken that would have been
consistent with the securities laws and that a prudent
fiduciary . . . would not have viewed as more likely to
harm the fund than to help it.” 573 U.S., at 428. Put
differently, the Court held the plaintiff’s ability to
identify a helpful action that the defendant could have
taken consistent with the securities laws is a necessary
condition to an ERISA suit. But nowhere did
Dudenhoeffer hold this is also a sufficient condition to
suit, promising that a case may proceed anytime a
plaintiff is able to conjure a hypothetical helpful action
that would’ve been consistent with the securities laws.

App-12
The Court didn’t consider whether other
necessary conditions to suit might exist because the
question wasn’t before it. Dudenhoeffer did discuss
some “additional considerations” that might arise
when a plaintiff tries to plead as “alternative action[s]”
either “refrain[ing] from making additional stock
purchases” or “disclos[ing] inside information to the
public.” Id., at 428-429. But the Court singled out
these circumstances only because of their obvious
potential to “conflict with the complex insider trading
and corporate disclosure requirements imposed by the
federal securities laws.” Id., at 429. So Dudenhoeffer
made plain that suits requiring fiduciaries to violate
the securities laws cannot proceed. But only the most
unabashed optimist could read that as guaranteeing
all other suits may.
The truth is, Dudenhoeffer was silent on the
argument now before us for the simple reason that the
parties in Dudenhoeffer were silent on it too. No one in
that case asked the Court to decide whether ERISA
plaintiffs may hold fiduciaries liable for alternative
actions they could have taken only in a nonfiduciary
capacity. And it is beyond debate that “[q]uestions
which merely lurk in the record, neither brought to the
attention of the court nor ruled upon, are not to be
considered as having been so decided as to constitute
precedents.” Webster v. Fall, 266 U.S. 507, 511 (1925).

App-13
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
No. 17-3518
________________
LARRY W. JANDER, and all other individuals similarly
situated, RICHARD J. WAKSMAN,
v.

Plaintiffs-Appellants,

RETIREMENT PLANS COMMITTEE OF IBM, RICHARD
CARROLL, ROBERT WEBER, MARTIN SCHROETER,
Defendants-Appellees,
INTERNATIONAL BUSINESS MACHINES CORPORATION,
Defendant.
________________
Argued: Sept. 7, 2018
Decided: Dec. 10, 2018
________________
Before: Katzmann, Chief Judge, Sack and Raggi,
Circuit Judges.
________________
OPINION
________________
Katzmann, Chief Judge:
The Employee Retirement Income Security Act
(“ERISA”) requires fiduciaries of retirement plans to
manage the plans’ assets prudently. 29 U.S.C.
§ 1104(a)(1)(B). One form of retirement plan, the

App-14
employee stock option plan (“ESOP”), primarily
invests in the common stock of the plan participant’s
employer. This case asks what standard one must
meet to plausibly allege that fiduciaries of an ESOP
have violated ERISA’s duty of prudence.
The plaintiffs here, IBM employees who were
participants in the company’s ESOP, claim that the
plan’s fiduciaries knew that a division of the company
was overvalued but failed to disclose that fact. This
failure, the plaintiffs allege, artificially inflated IBM’s
stock price, harming the ESOP’s members. To state a
duty-of-prudence claim, plaintiffs must plausibly
allege that a proposed alternative action would not
have done more harm than good. The parties disagree
about how high a standard the plaintiffs must meet to
make this showing. However, we need not resolve this
dispute today, because we find that the plaintiffs have
plausibly alleged an ERISA violation even under a
more restrictive interpretation of recent Supreme
Court rulings. We therefore REVERSE the district
court’s judgment dismissing this case and REMAND
for further proceedings.
BACKGROUND
Plaintiffs-appellants Larry Jander and Richard
Waksman, along with other unnamed plaintiffs
(collectively, “Jander”), are participants in IBM’s
retirement plan. They invested in the IBM Company
Stock Fund, an ESOP governed by ERISA. During the
relevant time period, defendants-appellees the
Retirement Plans Committee of IBM, Richard Carroll,
Robert Weber, and Martin Schroeter (collectively, “the
Plan defendants”) were fiduciaries charged with
overseeing the retirement plan’s management. The

App-15
individual defendants were also part of IBM’s senior
leadership: Carroll was the Chief Accounting Officer,
Schroeter the Chief Financial Officer, and Weber the
General Counsel.
Jander alleges that IBM began trying to find
buyers for its microelectronics business in 2013, at
which time that business was on track to incur annual
losses of $700 million. Through what Jander deems
accounting legerdemain, IBM failed to publicly
disclose these losses and continued to value the
business at approximately $2 billion. It is further
alleged that the Plan defendants knew or should have
known about these undisclosed issues with the
microelectronics business. On October 20, 2014, IBM
announced the sale of the microelectronics business to
GlobalFoundries Inc. The announcement revealed
that IBM would pay $1.5 billion to GlobalFoundries to
take the business off IBM’s hands and supply it with
semiconductors, and that IBM would take a $4.7
billion pre-tax charge, reflecting in part an
impairment in the stated value of the microelectronics
business. Thereafter, IBM’s stock price declined by
more than $12.00 per share, spawning two pertinent
lawsuits.
The first is International Ass’n of Heat & Frost
Insulators & Asbestos Workers Local #6 Pension Fund
v. International Business Machines Corp., 205 F.
Supp. 3d 527 (S.D.N.Y. 2016) (“Insulators”), a
securities fraud class action that was dismissed on
September 7, 2016. The district court found that the
investor plaintiffs had “plausibly plead[ed] that
Microelectronics’ decreased value, combined with its
operating losses, may have constituted an impairment

App-16
indicator under” Generally Accepted Accounting
Principles (“GAAP”). Id. at 535. The district court
nevertheless dismissed the claims because the
plaintiffs “fail[ed] to raise a strong inference that the
need to write-down Microelectronics was so apparent
to Defendants before the announcement, that a failure
to take an earlier write-down amount[ed] to fraud,” id.
at 537 (internal quotation marks and alterations
omitted), or that the defendants knew that IBM’s
earnings-per-share projections “lacked a reasonable
basis when they were made,” id. at 537-38. That
decision has not been appealed.
The second action is this case. Here, Jander
alleges that the Plan defendants continued to invest
the ESOP’s funds in IBM common stock despite the
Plan defendants’ knowledge of undisclosed troubles
relating to IBM’s microelectronics business. In doing
so, Jander alleges, the Plan defendants violated their
fiduciary duty of prudence to the pensioner plaintiffs
under ERISA. The plaintiffs also pleaded that “once
Defendants learned that IBM’s stock price was
artificially inflated, Defendants should have either
disclosed the truth about Microelectronics’ value or
issued new investment guidelines that would
temporarily freeze further investments in IBM stock.”
Jander v. Int’l Bus. Mach. Corp., 205 F. Supp. 3d 538,
544 (S.D.N.Y. 2016) (“Jander I”).
The district court first dismissed Jander’s case on
the same day it decided the securities fraud lawsuit.
See id. at 540-41. As an initial matter, the district
court relied on the reasoning set forth in its securities
fraud decision to find that the pensioner plaintiffs had
“plausibly pled that IBM’s Microelectronics unit was

App-17
impaired and that the Plan fiduciaries were aware of
its impairment.” Id. at 542. The court noted that
knowledge was a sufficient level of scienter because
ERISA plaintiffs need not meet the heightened
pleading standards that apply in securities actions. Id.
But the district court nevertheless dismissed the
action because Jander had “fail[ed] to plead facts
giving rise to an inference that Defendants ‘could not
have concluded’ that public disclosures, or halting the
Plan from further investing in IBM stock, were more
likely to harm than help the fund.” Id. at 545 (citing
Fifth Third, 134 S. Ct. at 2472).
Rather than dismiss the action with prejudice,
however, the district court granted Jander an
opportunity to file a second amended complaint. Id. at
546. Jander availed himself of that opportunity,
adding further details and alleging a third alternative
by which the Plan defendants could have avoided
breaching their fiduciary duty: by purchasing hedging
products to mitigate potential declines in the value of
IBM common stock. The district court again found
lacking the allegations concerning the three
alternatives available to the Plan defendants,
determining that each might have caused more harm
than good. Jander v. Ret. Plans Comm. of IBM, 272 F.
Supp. 3d 444, 451-54 (S.D.N.Y. 2017) (“Jander II”).
This appeal followed.
DISCUSSION
I.

Standard of Review

“To survive a motion to dismiss under Fed. R. Civ.
P. 12(b)(6), a complaint must allege sufficient facts,
taken as true, to state a plausible claim for relief. We
review de novo a dismissal for failure to state a claim,

App-18
accepting as true all material factual allegations in the
complaint and drawing all reasonable inferences in
plaintiffs’ favor.” Johnson v. Priceline.com, Inc., 711
F.3d 271, 275 (2d Cir. 2013) (citation omitted).
II. Duty of Prudence
“The central purpose of ERISA is to protect
beneficiaries of employee benefit plans . . . .” Slupinski
v. First Unum Life Ins. Co., 554 F.3d 38, 47 (2d Cir.
2009). Among the “important mechanisms for
furthering ERISA’s remedial purpose” are “private
actions by beneficiaries seeking in good faith to secure
their rights.” Salovaara v. Eckert, 222 F.3d 19, 28 (2d
Cir. 2000) (internal quotation mark omitted) (quoting
Meredith v. Navistar Int’l Transp. Corp., 935 F.2d 124,
128-29 (7th Cir. 1991)). Such private actions include
claims against a fiduciary for breach of the statutorily
imposed duty of prudence. See 29 U.S.C. § 1104(a)(1)
(“[A] fiduciary shall discharge his duties with respect
to a plan solely in the interest of the participants and
beneficiaries and . . . with the care, skill, prudence,
and diligence under the circumstances then prevailing
that a prudent man acting in a like capacity and
familiar with such matters would use in the conduct
of an enterprise of a like character and with like
aims . . . .”). The sole question at issue in this appeal
is whether Jander has plausibly pleaded that the Plan
defendants violated this duty.
A. ERISA’s Duty-of Prudence Standard
The
parties
disagree
first
and
most
fundamentally about what the plaintiffs must plead to
state a duty-of-prudence claim under ERISA. Their
arguments are premised on competing readings of two
recent decisions by the United States Supreme Court

App-19
and differing views of how they interact with the
decisions of our sister circuits. Some background is
therefore in order.
Prior to 2014, a consensus had formed that ESOP
fiduciaries were entitled to a presumption that their
fund management was prudent. This view was first
articulated by the Third Circuit, which reasoned that
“an ESOP fiduciary who invests the assets in employer
stock is entitled to a presumption that it acted
consistently with ERISA by virtue of that decision”
because “when an ESOP is created, it becomes simply
a trust under which the trustee is directed to invest
the assets primarily in the stock of a single company,”
a function that “serves a purpose explicitly approved
and encouraged by Congress.” Moench v. Robertson, 62
F.3d 553, 571 (3d Cir. 1995). As adopted by this Court,
the presumption held that “only circumstances
placing the employer in a dire situation that was
objectively unforeseeable by the [plan] settlor could
require fiduciaries to override plan terms” by ceasing
investment in the employer, a standard that would
“serve as a substantial shield that should protect
fiduciaries from liability where there is room for
reasonable fiduciaries to disagree as to whether they
are bound to divest from company stock.” In re
Citigroup ERISA Litig., 662 F.3d 128, 140 (2d Cir.
2011) (internal quotation marks and citations
omitted). Other circuits agreed, although the precise
formulation and application of the presumption in
favor of fiduciaries differed. 2
2 See, e.g., White v. Marshall & Ilsley Corp., 714 F.3d 980, 989
(7th Cir. 2013) (“[P]laintiffs . . . must allege . . . that the company
faced impending collapse or dire circumstances that could not

App-20
In 2014, the Supreme Court definitively rejected
the presumption of prudence in Fifth Third Bancorp
v. Dudenhoeffer, which held that “the law does not
create a special presumption favoring ESOP
fiduciaries.” 134 S. Ct. 2459, 2467 (2014). The Court
recognized that there is a “legitimate” concern that
“subjecting ESOP fiduciaries to a duty of prudence
without the protection of a special presumption will
lead to conflicts with the legal prohibition on insider
trading,” given that “ESOP fiduciaries often are
company insiders” subject to allegations that they
“were imprudent in failing to act on inside information
they had about the value of the employer’s stock.” Id.
at 2469. Nevertheless, the Court reasoned that “an
ESOP-specific rule that a fiduciary does not act
imprudently in buying or holding company stock
unless the company is on the brink of collapse (or the
like) is an ill-fitting means of addressing” that issue.
Id.
Similarly, the Court “agree[d] that Congress
sought to encourage the creation of ESOPs”; the Court
thus “recognized that ‘ERISA represents a careful
have been foreseen by the founder of the plan.” (internal
quotation marks omitted)); Quan v. Comput. Sci. Corp., 623 F.3d
870, 882 (9th Cir. 2010) (“[P]laintiffs must . . . make allegations
that clearly implicate the company’s viability as an ongoing
concern or show a precipitous decline in the employer’s stock
combined with evidence that the company is on the brink of
collapse or is undergoing serious mismanagement.” (internal
quotation marks and alterations omitted)); Kuper v. Iovenko, 66
F.3d 1447, 1459 (6th Cir. 1995) (“A plaintiff may . . . rebut th[e]
presumption of reasonableness by showing that a prudent
fiduciary acting under similar circumstances would have made a
different investment decision.”).

App-21
balancing between ensuring fair and prompt
enforcement of rights under a plan and the
encouragement of the creation of such plans.’” Id. at
2470 (quoting Conkright v. Frommert, 559 U.S. 506,
517 (2010)). Still, it concluded that the presumption of
prudence was not “an appropriate way to weed out
meritless lawsuits or to provide the requisite
‘balancing.’” Id. The correct standard must “readily
divide the plausible sheep from the meritless goats,” a
task that is “better accomplished through careful,
context-sensitive
scrutiny
of
a
complaint’s
allegations.” Id. Notably, the Court criticized the
presumption of prudence as “mak[ing] it impossible
for a plaintiff to state a duty-of-prudence claim, no
matter how meritorious, unless the employer is in very
bad economic circumstances.” Id.
After rejecting the pro-fiduciary presumption,
Fifth Third “consider[ed] more fully one important
mechanism for weeding out meritless claims, the
motion to dismiss for failure to state a claim.” Id. at
2471. The Court first determined that a duty-ofprudence claim may lie against ESOP fiduciaries only
where it is alleged that fiduciaries “behaved
imprudently by failing to act on the basis of nonpublic
information that was available to them because they
were [corporate] insiders.” Id. at 2472. To plead such
a claim, plaintiffs must “plausibly allege an
alternative action that the defendant could have taken
that would have been consistent with the securities
laws and that a prudent fiduciary in the same
circumstances would not have viewed as more likely
to harm the fund than to help it.” Id.

App-22
In analyzing any proposed alternative action,
three considerations are to “inform the requisite
analysis.” Id. First, the “duty of prudence cannot
require an ESOP fiduciary to perform an action—such
as divesting the fund’s holdings of the employer’s stock
on the basis of inside information—that would violate
the securities laws.” Id. Second, “where a complaint
faults fiduciaries for failing to decide, on the basis of
the inside information, to refrain from making
additional stock purchases or for failing to disclose
that information to the public so that the stock would
no longer be overvalued, . . . courts should consider”
whether such actions “could conflict with the complex
insider trading and corporate disclosure requirements
imposed by the federal securities laws or with the
objectives of those laws.” Id. at 2473. And third, courts
assessing these same alternatives “should also
consider whether the complaint has plausibly alleged
that a prudent fiduciary in the defendant’s position
could not have concluded” that those alternatives
“would do more harm than good to the fund by causing
a drop in the stock price and a concomitant drop in the
value of the stock already held by the fund.” Id.
This last consideration is the source of the parties’
dispute here. The Court first set out a test that asked
whether “a prudent fiduciary in the same
circumstances would not have viewed [an alternative
action] as more likely to harm the fund than to help
it.” Id. at 2472 (emphasis added). This formulation
suggests that courts ask what an average prudent
fiduciary might have thought. But then, only a short
while later in the same decision, the Court required
judges to assess whether a prudent fiduciary “could
not have concluded” that the action would do more

App-23
harm than good by dropping the stock price. Id. at
2473 (emphasis added). This latter formulation
appears to ask, not whether the average prudent
fiduciary would have thought the alternative action
would do more harm than good, but rather whether
any prudent fiduciary could have considered the
action to be more harmful than helpful. It is not clear
which of these tests determine whether a plaintiff has
plausibly alleged that the actions a defendant took
were imprudent in light of available alternatives.
Lower courts have struggled with how to apply
the Court’s decision in the ensuing years, and the high
court has yet to resolve the interpretive difficulties. In
the wake of Fifth Third, the Ninth Circuit reversed a
district court’s dismissal of ERISA claims based, in
part, on alleged breaches of the duty of prudence in
light of the fiduciaries’ inside information. Harris v.
Amgen, Inc., 770 F.3d 865 (9th Cir. 2014), amended
and superseded, 788 F.3d 916 (9th Cir. 2015), rev’d,
136 S. Ct. 758 (2016). The court rejected Amgen’s
argument that removing the ESOP fund as an
investment option would have risked causing the
employer’s stock price to drop. Though the Ninth
Circuit acknowledged that removing the fund “would
have sent a negative signal to investors if the fact of
the removal had been made public,” the court
determined that it would do so by implicitly disclosing
that the company was experiencing problems; thus,
“the ultimate decline in price would have been no more
than the amount by which the price was artificially
inflated.” Id. at 878. The court also rejected Amgen’s
argument that defendants could not legally remove
the fund based on inside information, finding that
declining to allow additional investments “would not

App-24
thereby have violated the prohibition against insider
trading, for there is no violation absent purchase or
sale of stock.” Id. at 879. Moreover, the court
explained, this supposed conundrum could have been
easily resolved “[i]f defendants had revealed material
information in a timely fashion to the general public
(including plan participants),” which “would have
simultaneously satisfied their duties under both the
securities laws and ERISA.” Id. at 878-79.
The Supreme Court summarily reversed the
Ninth Circuit, holding that it failed to adequately
scrutinize the plaintiffs’ pleadings. Amgen Inc. v.
Harris, 136 S. Ct. 758, 760 (2016) (per curiam). The
Court did not reject the Ninth Circuit’s reasoning
outright. Rather, it found a mismatch between that
reasoning and the allegations in the “current form” of
the complaint regarding whether “a prudent fiduciary
in the same position ‘could not have concluded’ that
the alternative action ‘would do more harm than
good.’” Id. (quoting Fifth Third, 134 S. Ct. at 2473).
The Court stated:
The Ninth Circuit’s proposition that
removing the Amgen Common Stock Fund
from the list of investment options was an
alternative action that could plausibly have
satisfied Fifth Third’s standards may be true.
If so, the facts and allegations supporting
that proposition should appear in the
stockholders’ complaint. Having examined
the complaint, the Court has not found
sufficient facts and allegations to state a
claim for breach of the duty of prudence.

App-25
Id. “Amgen’s analysis, however, neglects to offer any
guidance about what facts a plaintiff must plead to
state a plausible claim for relief.” Saumer v. Cliffs Nat.
Res. Inc., 853 F.3d 855, 865 (6th Cir. 2017). This is in
part because the complaint in Amgen included no
allegations regarding proposed alternative actions
beyond the bare assertion that they were available. 3
Accordingly, Amgen’s import could be interpreted in
multiple ways. It might clarify what was implicit in
Fifth Third: that allegations about why an alternative
action would do more good than harm must appear in
the complaint itself, not merely in a court’s opinion. Or
it might instead confirm that the “could not have
concluded” language from Fifth Third created a
separate standard that must independently be
satisfied to plead a duty-of-prudence claim.
The parties spar over which of these two
interpretations is correct. The Plan defendants urge
us to view Fifth Third and Amgen as setting out a
restrictive test, noting that at least two of our sister
The relevant allegations in the Amgen complaint are found in
a single paragraph that is repeated twice verbatim:
3

Defendants had available to them several different
options for satisfying this duty, including: making
appropriate disclosures as necessary; divesting the
Plan of Company Stock; precluding additional
investment in Company Stock; consulting independent
fiduciaries regarding appropriate measures to take in
order to prudently and loyally serve the participants of
the Plan; or resigning as fiduciaries of the Plan . . . .
Harris v. Amgen, Inc., No. 07 Civ. 5442, Dkt. No. 168, ¶¶ 290, 344
(C.D. Cal. Mar. 23, 2010). These alternatives were not fleshed out
in any further detail and the complaint was never amended
following Fifth Third.

App-26
circuits have adopted that interpretation. See
Saumers, 853 F.3d at 864-65; Whitley v. BP, P.L.C.,
838 F.3d 523, 529 (5th Cir. 2016). Jander notes that
no duty-of-prudence claim against an ESOP fiduciary
has passed the motion-to-dismiss stage since Amgen,
and he asserts that the courts—and the Plan
defendants—have misread that decision. According to
Jander, imposing such a heavy burden at the motionto-dismiss stage runs contrary to the Supreme Court’s
stated desire in Fifth Third to lower the barrier set by
the presumption of prudence. Our sole precedential
post-Amgen duty-of-prudence opinion does not
explicitly take a side in this dispute. See Rinehart v.
Lehman Bros. Holdings Inc., 817 F.3d 56, 68 (2d Cir.
2016), cert. denied, 137 S. Ct. 1067 (2017).
We need not here decide which of the two
standards the parties champion is correct, however,
because we find that Jander plausibly pleads a dutyof-prudence claim even under the more restrictive
“could not have concluded” test.
B. The Plaintiffs’ Duty-of-Prudence Claim
The district court held that Jander failed to state
a duty-of-prudence claim under ERISA because a
prudent fiduciary could have concluded that the three
alternative actions proposed in the complaint—
disclosure, halting trades of IBM stock, or purchasing
a hedging product—would do more harm than good to
the fund. We respectfully disagree. Jander has limited
the proposed alternative actions on appeal to just one:
early corrective disclosure of the microelectronics
division’s impairment, conducted alongside the
regular SEC reporting process. Several allegations in
the amended complaint, considered in combination

App-27
and “draw[ing] all reasonable inferences in plaintiff’s
favor,” Panther Partners Inc. v. Ikanos Commc’ns, Inc.,
681 F.3d 114, 119 (2d Cir. 2012) (citation omitted),
plausibly establish that a prudent fiduciary in the
Plan defendants’ position could not have concluded
that corrective disclosure would do more harm than
good.
First, the Plan defendants allegedly knew that
IBM stock was artificially inflated through accounting
violations. As the district court found, Jander has
plausibly alleged a GAAP violation, and “in view of the
lower pleading standards applicable to an ERISA
action, [he has] plausibly pled that IBM’s
Microelectronics unit was impaired and that the Plan
fiduciaries were aware of its impairment.” Jander I,
205 F. Supp. 3d at 542.
Second, the Plan defendants allegedly “had the
power to disclose the truth to the public and correct
the artificial inflation.” App. 85. Two of the Plan
defendants “were uniquely situated to fix this problem
inasmuch as they had primary responsibility for the
public disclosures that had artificially inflated the
stock price to begin with.” Id. The district court
thought that the complaint failed to account for the
risks that “an unusual disclosure outside the
securities laws’ normal reporting regime could spook
the market, causing a more significant drop in price
than if the disclosure were made through the
customary procedures.” Jander II, 272 F. Supp. 3d at
451 (citation omitted). This reasoning assumes that
any disclosure would have to have been “outside the
securities laws’ normal reporting regime.” Id. Yet the
class period here runs from January through October

App-28
2014. The amended complaint therefore plausibly
alleges that disclosures could have been included
within IBM’s quarterly SEC filings and disclosed to
the ESOP’s beneficiaries at the same time in the Plan
defendants’ fiduciary capacity. See App. 60-61.
Third, Jander alleges that the defendants’ failure
promptly to disclose the value of IBM’s
microelectronics
division
“hurt
management’s
credibility and the long-term prospects of IBM as an
investment” because the eventual disclosure of a
prolonged fraud causes “reputational damage” that
“increases the longer the fraud goes on[].” App. 87. The
district court dismissed this allegation as an
“argument [that] rests on hindsight,” which “says
nothing about what a prudent fiduciary would have
concluded under the circumstances then prevailing.”
Jander II, 272 F. Supp. 3d at 450. But Jander’s
argument is not retrospective. A reasonable business
executive could plausibly foresee that the inevitable
disclosure of longstanding corporate fraud would
reflect badly on the company and undermine faith in
its future pronouncements. Moreover, Jander bolsters
this inference by citing economic analyses that show
that reputational harm is a common result of fraud
and grows the longer the fraud is concealed,
translating into larger stock drops.
The court below rejected the argument that an
earlier disclosure would have minimized the eventual
stock price correction, on the ground that it was “not
particular to the facts of this case and could be made
by plaintiffs in any case asserting a breach of ERISA’s
duty of prudence.” Jander II, 272 F. Supp. 3d at 449
(quoting Jander I, 205 F. Supp. 3d at 546); see also id.

App-29
at 450 & n.2. (criticizing plaintiffs for not “retaining
an expert to perform a quantitative analysis to show
more precisely how Plan participants are
harmed . . . by purchasing Fund shares at artificially
high prices” but further noting that “even that may not
be enough” to state a claim). And although Jander
cited a number of economic studies to support his
argument, the court said that this evidence “only
underscores the general, theoretical, and untested
nature of [the] allegations.” Id. at 449.
However, the possibility of similar allegations in
other ERISA cases does not undermine their
plausibility here (or, for that matter, elsewhere), nor
does it mean that the district court should not have
considered them. To the contrary, in evaluating the
defendants’ motion to dismiss, the district court was
required to accept the complaint’s well-pleaded
allegations as true. Assertions grounded in economic
studies of general market experience cannot be
dismissed as merely “theoretical,” and the fact that
they are “untested” at this early stage of the litigation
does not necessarily render them implausible.
Moreover, as Jander points out, there are a number of
other determinations that must be made in a factspecific way before these allegations come into play:
whether there was an ongoing act of concealment, for
instance, and whether that concealment was known
by the fiduciaries such that further investigation
would not be needed and disclosure would not be
premature. Courts would also have to assess whether
the circumstances would nevertheless have made
immediate disclosure particularly dangerous, such
that the generalized economic analyses put forward
here would not apply. See, e.g., Rinehart, 817 F.3d at

App-30
68 (“A prudent fiduciary could have concluded that
divesting Lehman stock, or simply holding it without
purchasing more, would do more harm than good.
Such an alternative action in the summer of 2008
could have had dire consequences.” (citation and
internal quotation marks omitted)). While these
economic analyses will usually not be enough on their
own to plead a duty-of-prudence violation, they may
be considered as part of the overall picture.
Fourth, the complaint alleges that “IBM stock
traded in an efficient market,” such that “correcting
the Company’s fraud would reduce IBM’s stock price
only by the amount by which it was artificially
inflated.” App. 51. It is well established that “the
market price of shares traded on well-developed
markets reflects all publicly available information.”
Basic Inc. v. Levinson, 485 U.S. 224, 246 (1988).
Accordingly, Jander plausibly alleges that a prudent
fiduciary need not fear an irrational overreaction to
the disclosure of fraud. 4
Fifth and finally, the defendants allegedly knew
that disclosure of the truth regarding IBM’s
microelectronics business was inevitable, because
IBM was likely to sell the business and would be
unable to hide its overvaluation from the public at that
point. See App. 88. This allegation is particularly
important. In the normal case, when the prudent
fiduciary asks whether disclosure would do more harm
than good, the fiduciary is making a comparison only
4 This is not inconsistent with the prior allegation regarding
reputational harm. Rational investors could well conclude that
companies that allow fraud to continue longer are more poorly
run, for example.

App-31
to the status quo of non-disclosure. In this case,
however, the prudent fiduciary would have to compare
the benefits and costs of earlier disclosure to those of
later disclosure—non-disclosure is no longer a
realistic point of comparison. Accordingly, when a
“drop in the value of the stock already held by the
fund” is inevitable, Fifth Third, 134 S. Ct. at 2473, it
is far more plausible that a prudent fiduciary would
prefer to limit the effects of the stock’s artificial
inflation on the ESOP’s beneficiaries through prompt
disclosure.
The district court thought that the potential sale
of the microelectronics business cut the other way.
Jander II, 272 F. Supp. 3d at 451 (theorizing that a
prudent fiduciary could think disclosure might “spook
potential buyers”). But we think any potential
purchaser would surely conduct its own due diligence
of the business prior to purchasing it. In that context,
it makes little sense to fear “spooking” a potential
buyer by publicly disclosing what that buyer would
surely discover on its own. Accordingly, a prudent
fiduciary would have known that a potential
purchaser’s due diligence would likely result in
discovery of the business’s problems in any event.
Indeed, that is precisely what appears to have
occurred, as IBM paid $1.5 billion to GlobalFoundries
as part of its sale of the microelectronics business, the
announcement of which constituted corrective
disclosure to the public markets in this action. The
allegations regarding the sale of the microelectronics
business, far from undermining Jander’s duty-ofprudence claim, instead tip the scales toward
plausibility.

App-32
The Plan defendants have one arrow left in their
quiver. According to the district court, Jander’s
corrective disclosure theory did not sufficiently
account for the effect of disclosure on “the value of the
stock already held by the fund.” Fifth Third, 134 S. Ct.
at 2473. Specifically, the court found that the
complaint failed to satisfy Fifth Third in part because
“even if the stock price dropped marginally as a result
of a corrective disclosure, the net effect of that drop on
more than $110 million purchased by Plan
participants could have been substantial.” Jander II,
272 F. Supp. 3d at 450. But, as described above,
nondisclosure of IBM’s troubles was no longer a
realistic option, and a stock-drop following early
disclosure would be no more harmful than the
inevitable stock drop that would occur following a
later disclosure. Thus, contrary to the district court’s
conclusion, the effect of disclosure on “the value of the
stock already held by the fund,” Fifth Third, 134 S. Ct.
at 1473, does not point in defendants’ favor.
To be sure, further record development might not
support findings so favorable to Jander and adverse to
the Plan defendants. But drawing all reasonable
inferences in Jander’s favor, as we are required to do
at this stage, and keeping in mind that the standard
is plausibility—not likelihood or certainty—we
conclude that Jander has sufficiently pleaded that no
prudent fiduciary in the Plan defendants’ position
could have concluded that earlier disclosure would do
more harm than good. We therefore hold that Jander
has stated a claim for violation of ERISA’s duty of
prudence.

App-33
III. The Interplay Between the ERISA and
Securities Fraud Suits
One issue remains for us to address: the
relevance, if any, of the parallel securities fraud suit
against IBM. As already noted, the district court
dismissed that case, and the plaintiffs did not appeal.
The district court found that the plaintiffs had “fail[ed]
to raise a strong inference that the need to write-down
Microelectronics was so apparent to Defendants before
the announcement, that a failure to take an earlier
write-down amounts to fraud,” or that the Plan
defendants knew that IBM’s earnings-per-share
projections “lacked a reasonable basis when they were
made.” Insulators, 205 F. Supp. 3d at 537-38 (internal
quotation marks and alterations omitted). The
plaintiffs therefore could not plausibly plead scienter.
Id. at 535, 537-38. The Plan defendants assert that
allowing Jander’s ERISA claim to go forward on
essentially the same facts would lead to an end run
around the heightened pleading standards for
securities fraud suits set out in the Private Securities
Litigation Reform Act (“PSLRA”), 15 U.S.C. § 78u4(b). While this concern is not without merit, it does
not provide a basis to affirm the district court’s
dismissal of Jander’s duty-of-prudence claim.
The Insulators holding is not preclusive as to this
case, because the PSLRA does not apply to ERISA
actions. “No heightened pleading standard applies [to
duty-of-prudence claims]; it is enough to provide the
context necessary to show a plausible claim for relief.”
Allen v. GreatBanc Tr. Co., 835 F.3d 670, 674 (7th Cir.
2016); see also Rogers v. Baxter Int’l, Inc., 521 F.3d
702, 705 (7th Cir. 2008) (holding that the PSLRA does

App-34
not apply to ERISA claims). This is clear from the text
of the PSLRA itself, which is limited to actions under
the securities laws. See Pub. L. No. 104-67, tit. I,
§ 101(b) (codified as amended at 15 U.S.C. § 78u-4(a)
(1)) (“The provisions of this subsection shall apply in
each private action arising under this title [Title 15]
that is brought as a plaintiff class action pursuant to
the Federal Rules of Civil Procedure.”); 15 U.S.C.
§ 78u-4(a)(1) (limiting the PSLRA’s reach to any
“private action arising under this chapter [the
Securities Exchange Act of 1934] that is brought as a
plaintiff class action”). Additionally, the legislative
history of the PSLRA indicates that Congress
heightened the pleading requirements for fraud
because the securities fraud laws were being abused
and “[u]nwarranted fraud claims can lead to serious
injury to reputation for which our legal system
effectively offers no redress.” H.R. Conf. Rep. 104-369,
at 41 (1995), 1995 U.S.C.C.A.N. 730, 740; see Tellabs,
Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308, 320
(2007) (noting that the PSLRA was “[d]esigned to curb
perceived abuses of the § 10(b) private action”). In
ERISA cases such as this, however, plaintiffs are not
accusing defendants of fraud. They are accusing
defendants only of violating a fiduciary duty of
prudence, which does not carry the same stigma.
Nor have we applied other, similar heightened
pleading standards to ERISA claims. Only when
plaintiffs invoke the fraud exception to ERISA’s usual
statutes of limitations, for instance, have we required
them to follow the heightened pleading standards for
fraud laid out in Federal Rule of Civil Procedure 9(b).
See Janese v. Fay, 692 F.3d 221, 228 (2d Cir. 2012); see
also Concha v. London, 62 F.3d 1493, 1502 (9th Cir.

App-35
1995) (holding that Rule 9(b) does not apply to ERISA
fiduciary-duty claims).
“ERISA and the securities laws ultimately have
differing objectives pursued under entirely separate
statutory schemes designed to protect different
constituencies—ERISA plan beneficiaries in the first
instance and purchasers and sellers of securities in
the second.” In re Lehman Bros. Sec. & ERISA Litig.,
113 F. Supp. 3d 745, 768 (S.D.N.Y. 2015), aff’d sub
nom. Rinehart, 817 F.3d 56; accord In re: BP Sec.,
Derivative & Emp’t Ret. Income Sec. Act (ERISA)
Litig., 734 F. Supp. 2d 1380, 1382 (J.P.M.L. 2010).
Congress has chosen different structures to handle
different claims; it is not our role to tie together what
Congress has chosen to keep separate. If plaintiffs do
begin to abuse ERISA in the way Congress felt they
have abused the securities laws, then Congress can
amend ERISA accordingly.
Just because the dismissal of the parallel
securities suit is not preclusive, however, does not
mean that it is irrelevant. Our recognition of a
plausible ERISA duty-of-prudence claim assumes—
consistent with the Insulators ruling—that the Plan
defendants did not commit securities fraud but,
nevertheless, that Jander plausibly alleges that the
Plan defendants had the requisite knowledge of
overvaluation to raise fiduciary responsibilities
consistent with the standard identified in Fifth Third.
Since the Insulators suit was dismissed and not
appealed, Jander may not allege directly or indirectly
that the Plan defendants committed securities fraud.
However, he may of course allege (and attempt to
prove) that the Plan defendants knew about the

App-36
microelectronics division’s overvaluation and failed to
disclose it.
CONCLUSION
For the foregoing reasons, we REVERSE the
judgment below and REMAND this matter to the
district court for further proceedings consistent with
this opinion.

App-37
Appendix D
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
No. 17-3518
________________
LARRY W. JANDER, and all other individuals similarly
situated, RICHARD J. WAKSMAN,
v.

Plaintiffs-Appellants,

RETIREMENT PLANS COMMITTEE OF IBM, RICHARD
CARROLL, ROBERT WEBER, MARTIN SCHROETER,
Defendants-Appellees,
INTERNATIONAL BUSINESS MACHINES CORPORATION,
Defendant.
________________
Filed: Jan. 18, 2019
________________
ORDER
________________
Appellees, Retirement Plans Committee of IBM,
Richard Carroll, Robert Weber and Martin Schroeter,
filed a petition for panel rehearing, or, in the
alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.

App-38
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe

App-39
Appendix E
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
________________
No. 15-cv-3781
________________
LARRY W. JANDER, RICHARD J. WAKSMAN, and all
other individuals similarly situated,
v.

Plaintiffs,

RETIREMENT PLANS COMMITTEE OF IBM, et al.,
Defendants,
________________
Filed: Sept. 29, 2017
________________
OPINION & ORDER
________________
WILLIAM H. PAULEY III, United States District
Judge:
The Retirement Plans Committee of IBM, Richard
Carroll, Martin Schroeter, and Robert Weber
(together, the “Defendants”) move to dismiss the
Second Amended Class Complaint (the “Complaint”).
For the following reasons, the Defendants’ motion is
granted.
BACKGROUND
This stock-drop action arises from IBM’s October
2014 announcement regarding the sale of its
Microelectronic business and a concomitant $2.4

App-40
billion write-down of its assets. 1 Plaintiffs, as
members of IBM’s 401(k) Plus Plan (the “Plan”) who
invested in the IBM Stock Fund (the “Fund”), allege
that Defendants violated their fiduciary duties when
they failed to mitigate the foreseeable drop in IBM’s
stock and protect Plan members from losing millions
of dollars in retirement savings.
I.

Relevant Allegations

For purposes of this motion, the factual
allegations in the Complaint are accepted as true. The
Plan is a defined contribution benefit plan sponsored
by IBM toward which eligible employees may defer up
to 10% of their compensation. (Complaint (“Compl.”),
ECF No. 38, ¶ 44.) Under the Plan’s governing
documents, the Retirement Plans Committee
(“Committee”) is a named fiduciary under the
Employee Retirement Income Security Act (“ERISA”).
(Compl. ¶ 40.) Defendants Schroeter and Weber, as
members of the Committee, along with Carroll, the
Plan Administrator, are also named fiduciaries. The
Plan offered a suite of investment options that Plan
participants could choose from, including the Fund, an
employee stock option plan (“ESOP”) that primarily
invested in IBM stock.
In 2013, IBM began searching for a buyer to
purchase its Microelectronics business, a division of
its Systems and Technology Segment responsible for
designing and producing microchips. (Compl. ¶¶ 55,
1 Familiarity with this Court’s prior Opinions and Orders in
Int’l Assoc. of Heat & Frost Insulators & Asbestos Workers Local
#6 Pension Fund v. Int’l Bus. Machs. Corp., 205 F. Supp. 3d 527
(S.D.N.Y. 2016) and Jander v. Int’l Bus. Machs. Corp., 205 F.
Supp. 3d 538 (S.D.N.Y. 2016), is presumed.

App-41
59.) IBM hired an investment bank to solicit offers
from potential suitors but had difficulty finding a
buyer. (Compl. ¶¶ 59-60.) While IBM was engaged in
the search for a buyer, it continued to operate the
Microelectronics
business,
making
periodic
disclosures to the market about its financial condition.
From January 21, 2014 to October 20, 2014 (the
“Class Period”), IBM reported positive news and
figures regarding the value of its Microelectronics
business. (Compl. ¶¶ 64-76). In reality, however, IBM
and Defendants concealed the truth—that the
Microelectronics business was “a massive moneyloser” whose continued operation had a “substantial
negative impact” on the Systems and Technology
Segment’s overall business. (Compl. ¶ 69.) For nearly
a year as IBM searched for a buyer, the
Microelectronics business hemorrhaged money.
(Compl. ¶ 17.)
The effect of these misrepresentations—and
IBM’s failure to disclose the truth—had a dramatic,
artificial impact on the value of IBM stock. During the
Class Period, the stock price reached as high as $196
per share. (Compl. ¶ 18.) On October 20, 2014, IBM
announced the sale of its Microelectronics business,
startling the markets with news that it would pay the
buyer $1.5 billion to take the asset off its hands.
(Compl. ¶ 80.) The announcement also revealed that
IBM had assigned a carrying value of approximately
$2.4 billion to the Microelectronic business even
though it knew the assets were worth significantly
less. (Compl. ¶ 95.) On the heels of this news, IBM’s
stock price fell by 7.11% from $182.05 per share on

App-42
Friday, October 17, 2014 to $169.10 on Monday,
October 20, 2014. (Compl. ¶ 18.)
II. Procedural History
In September 2016, this Court dismissed
Plaintiffs’ claims on grounds that their complaint
failed to state a claim for breach of the duty of
prudence. More specifically, Plaintiffs “fail[ed] to
plead facts giving rise to an inference that Defendants
could not have concluded that public disclosures, or
halting the Plan from further investing in IBM stock,
were more likely to harm than help the fund.” Jander,
205 F. Supp. 3d at 545 (internal citations and
quotations omitted).
This Court further held that in order to prevail on
an ERISA claim, Plaintiffs must satisfy a “highly
demanding pleading standard”—one under which a
“rote recitation of proposed remedies without the
necessary facts and allegations supporting Plaintiffs’
proposition” would not suffice. Jander, 205 F. Supp. 3d
at 546 (internal citation and quotation marks
omitted). Plaintiffs argued that the Supreme Court’s
holding in Fifth Third Bancorp v. Dudenhoeffer, 134
S. Ct. 2459 (2014), set “an impossibly high barrier for
ERISA breach-of-fiduciary duty cases concerning
ESOPs,” but this Court recognized that Dudenhoeffer
merely sought to “clarif[y] the standard by which
courts need to evaluate such cases, [and] did not
necessarily ease the standard.” Jander, 205 F. Supp.
3d at 546.
Notwithstanding dismissal of the first complaint,
this Court afforded Plaintiffs another opportunity to
re-plead their claims after “undertak[ing] the
necessary due diligence to provide facts [with] greater

App-43
specificity.” Jander, 205 F. Supp. 3d at 546. Shortly
after Plaintiffs filed their Complaint, Defendants
again moved to dismiss.
DISCUSSION
I.

Standard

On a motion to dismiss, a complaint “must contain
sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 570 (2007)). A pleading that
offers “labels and conclusions” or a “formulaic
recitation of the elements of a cause of action will not
do.” Iqbal, 556 U.S. at 677. Nor does a complaint
suffice if it offers “naked assertion[s]” devoid of
“further factual enhancement.” Iqbal, 556 U.S. at 678
(internal quotation marks omitted). The “plausibility
standard is not akin to a ‘probability requirement,’ but
it asks for more than a sheer possibility that a
defendant has acted unlawfully.” Iqbal, 556 U.S. at
678 (internal citations and quotations omitted).
Nevertheless, this Court must accept as true all
well-pleaded
allegations—including
documents
attached to the Complaint or incorporated by
reference, and matters subject to judicial notice—and
draw all reasonable inferences in Plaintiffs’ favor.
N.Y. Pet Welfare Assoc., Inc. v. City of N.Y., 850 F.3d
79, 86 (2d Cir. 2017); ATSI Commc’ns, Inc. v. Shaar
Fund, Ltd., 493 F.3d 87, 98 (2d Cir. 2007) (courts may
consider “legally required public disclosure documents
filed with the SEC” and documents relied on by
plaintiff “in bringing suit”).

App-44
II. Analysis
Plaintiffs offer three alternative actions that
Defendants could have taken to mitigate the
deleterious effects on IBM’s stock price following the
divestiture announcement. In their previous
complaint, Plaintiffs alleged two alternative actions—
that Defendants (i) could have made an earlier
corrective disclosure to the market and (ii) could have
halted all purchases and sales of IBM stock. They
reiterate those alternatives and add a third in this
Complaint, namely that Defendants could have
purchased a hedging product to offset any losses to the
Plan.
Under ERISA, an ESOP fiduciary owes the duty
to act prudently “under the circumstances then
prevailing.” 29 U.S.C. § 1104(a)(1)(B). In other words,
the duty of prudence is not evaluated from the
“vantage point of hindsight.” Roth v. Sawyer-Cleator
Lumber Co., 16 F.3d 915, 918 (8th Cir. 1994).
Therefore, to determine whether a fiduciary has acted
prudently, courts must focus on the “fiduciary’s
conduct in arriving at an investment decision, not on
its results, and ask whether a fiduciary employed the
appropriate methods to investigate and determine the
merits of a particular investment.” Pension Benefit
Guar. Corp. ex rel. St. Vincent v. Morgan Stanley Inv.
Mgmt., 712 F.3d 705, 716 (2d Cir. 2012) (internal
citations and quotation marks omitted). In doing so,
“the duty of prudence turns on the circumstances
prevailing at the time the fiduciary acts, [and] the
appropriate inquiry will necessarily be context
specific.” Dudenhoeffer, 134 S. Ct. at 2471 (citing 29
U.S.C. § 1104(a)(1)(B)).

App-45
When a duty of prudence claim is alleged on the
basis of nonpublic information, Dudenhoeffer dictates
that “a plaintiff must plausibly allege an alternative
action that the defendant could have taken that would
have been consistent with the securities laws and that
a prudent fiduciary in the same circumstances would
not have viewed as more likely to harm the fund than
to help it.” 134 S. Ct. at 2472. Dudenhoeffer signaled a
sea change in ERISA law, namely because it
eliminated the presumption of prudence previously
afforded ESOP fiduciaries. 134 S. Ct. at 2467.
Recognizing that removing this special presumption
could open the doors to “meritless, economically
burdensome lawsuits,” the Supreme Court fashioned
a pleading standard designed to “divide the plausible
sheep from the meritless goats,” which requires courts
to undertake a “careful, context-sensitive scrutiny of a
complaint’s allegations.” Dudenhoeffer, 134 S. Ct. at
2470.
A mere two years after Dudenhoeffer, the
Supreme Court validated this exacting standard,
directing lower courts to scrutinize the “facts and
allegations supporting” a duty of prudence claim.
Amgen Inc. v. Harris, 136 S. Ct. 758, 760 (2016).
Dudenhoeffer did not impose a pleading standard
different than that set forth in Twombly and Iqbal, but
plaintiffs in ESOP duty of prudence cases have
nonetheless struggled to satisfy it. The inherent
nature of a duty of prudence claim—looking back to
the relevant period to ascertain what a prudent
fiduciary would have concluded—is necessarily
context specific. Taking direction from Dudenhoeffer
and Amgen, courts across the country have recognized
that plaintiffs in ESOP prudence cases bear “the

App-46
significant burden of proposing an alternative course
of action so clearly beneficial that a prudent fiduciary
could not conclude that it would be more likely to harm
the fund than to help it.” Whitley v. BP, P.L.C., 838
F.3d 523, 529 (5th Cir. 2016) (emphasis original);
Jander, 205 F. Supp. 3d at 545 (noting the “highly
demanding” and “highly exacting standard which is
difficult to satisfy”).
Here, the allegations in the Complaint fall short
of the standard set forth in Dudenhoeffer and Amgen.
The Complaint is longer than its previous iteration,
but much of it is adorned with conclusory allegations
aimed at advancing the general theory that Plaintiffs’
proposed alternative actions would have protected the
Plan from its losses. Beyond a rote explanation of how
those alternative actions would have mitigated the
harm, the Complaint is bereft of context-specific
details to show that a prudent fiduciary would not
have viewed the proposed alternatives as more likely
to do more harm than good. Amgen, 136 S. Ct. at 760.
This Court turns to an analysis of each of Plaintiffs’
proposed alternative actions.
A. Issuing Earlier Corrective Disclosure
Plaintiffs allege that Defendants “could have
issued truthful or corrective disclosures much earlier
to cure the fraud and to make its stock a prudent
investment again for the Plan.” (Compl. ¶ 104.)
Employing this alternative could have “ended the
artificial inflation in IBM’s stock price, which was
damaging all purchasers through the Plan who paid
excessive, fraudulent prices for the stock.” (Compl.
¶ 105.) That is all the more true, Plaintiffs claim, since

App-47
the Plan was a net buyer of approximately $111
million worth of IBM stock in 2014. (Compl. ¶ 106).
While these allegations are plausible on a
theoretical basis, they fail to shed any light on
whether a prudent fiduciary in Defendants’ position
under circumstances then prevailing believed that a
corrective disclosure would not have done more harm
than good to the Fund. As an initial matter, “courts
have routinely rejected the allegation that the longer
a fraud goes on, the harsher the correction as support
for corrective disclosure as a plausible alternative.”
Graham v. Fearon, 2017 WL 1113358, at *5 (N.D. Ohio
Mar. 24, 2017) (internal quotation marks and citations
omitted); JPMorgan Chase & Co. ERISA Litig., 2016
WL 110521, at *4 (S.D.N.Y Jan. 8, 2016), aff’d sub
nom. Loeza v. John Does 1-10, 659 F. App’x 44 (2d Cir.
2016); Jander, 2016 WL 4688864, at *5 (“Plaintiffs’
argument that delay in disclosing an alleged fraud
always harms investors in the Plan is not particular
to the facts of this case and could be made by plaintiffs
in any case asserting a breach of ERISA’s duty of
prudence.”). Plaintiffs’ attempt to buttress that
proposition with various academic articles and studies
theorizing that the gap between a stock’s true price
and its artificial price—and the reputational damage
to the stock’s long-term investment value—continues
to grow as the misrepresentations inflating the stock
remain uncorrected. (Compl. ¶¶ 107, 109.) But
offering these studies only underscores the general,
theoretical, and untested nature of Plaintiffs’
allegations.
Plaintiffs allege that the failure of IBM’s share
price to rebound in the aftermath of the company’s

App-48
October 2014 divestiture announcement validates the
viability of making a corrective disclosure.
Specifically, they assert that IBM’s stagnant stock
price two years after the divestiture announcement is
evidence of the lingering reputational damage to
IBM’s stock as a long-term investment. (Compl. ¶ 27.)
But aside from a number of intervening factors that
could have contributed to a lethargic stock price, this
argument rests on hindsight. Even if this Court
credited this point, it says nothing about what a
prudent fiduciary would have concluded under the
circumstances then prevailing. See In re Target Corp.
Sec. Litig., 2017 WL 3267708, at *19 (D. Minn. July
31, 2017) (theory as to duty of prudence based on
hindsight is “insufficient to state a breach of the duty
of prudence claim under ERISA, let alone meet
Dudenhoeffer’s standards.”).
Plaintiffs advance one additional allegation that
is remotely context specific—that the Fund was a net
buyer of IBM stock, purchasing approximately $111
million in 2014. (Compl. ¶ 106.) A prudent fiduciary,
they argue, would have saved unwitting buyers from
a steeper decline in the value of their stock even if
certain “Plan participants who managed to sell at
inflated prices” ultimately benefited. (Compl. ¶ 106.)
And based on that, a prudent fiduciary would have
concluded that “more harm than good to the Plan
could not possibly be done by continuing to let the
artificial inflation go uncorrected.” (Compl. ¶ 106.) But
this allegation omits sales of approximately $391
million of IBM stock during the same period that Plan
participants purchased $111 million of stock. That
turns the Fund into a net seller for the year.
(Declaration of Lawrence Portnoy in Support of

App-49
Motion to Dismiss, ECF No. 45, Ex. H, SEC Form 11K for FY 2014.) This context-specific fact radically
changes the analysis regarding what a prudent
fiduciary would have concluded. With net sales
eclipsing net purchases, it is entirely conceivable that
a prudent fiduciary could have concluded that issuing
an early corrective disclosure would do more harm
than good.
Moreover, Plaintiffs’ allegations merely track the
theory of corrective disclosure—that releasing news of
the fraud earlier would mitigate a precipitous drop in
stock price following the divestiture announcement.
(See Compl. ¶¶ 114-115, 118-119.) Plaintiffs offer no
insight into how far the stock price would have
dropped if disclosure was made earlier. More
importantly, “Dudenhoeffer expressly instructs courts
to consider whether publicly disclosing negative
information would do more harm than good to the fund
by causing a drop in the stock price and a concomitant
drop in the value of the stock already held by the
fund.” In re BP P.L.C. Sec. Litig., 2017 WL 914995, at
*5 (S.D. Tex. Mar. 8, 2017) (internal citation omitted
and emphasis original). Thus, even if the stock price
dropped marginally as a result of a corrective
disclosure, the net effect of that drop on more than
$110 million purchased by Plan participants could
have been substantial.
Pleading these concepts requires more substance,
which is why this Court, in allowing Plaintiffs to file
the Complaint, presumed that they would “undertake
the necessary due diligence to provide facts of this
greater specificity, including those data regarding the
Fund’s Class Period purchases . . . and possibly

App-50
retaining an expert to perform a quantitative analysis
to show more precisely how Plan participants are
harmed in the short and long term by purchasing
Fund shares at artificially high prices.” 2 Jander, 205
F. Supp. 3d at 546. But the Complaint offers no such
analysis.
Beyond the absence of context specific allegations,
however, the Complaint suffers from the failure to
consider how a prudent fiduciary, when confronted
with the inevitability of disclosing the impending sale
of its Microelectronic business, would have accounted
for the potential ill-effects resulting from a premature
But even that may not be enough. In BP P.L.C., to “quantify
the hypothetical effect of making an [earlier disclosure],” the
plaintiffs hired a financial markets expert who surmised a “3 to
5% decline from an early disclosure,” which was substantially
less than the 50% drop that actually occurred when BP’s
undisclosed safety risks materialized. 2017 WL 914995, at *5.
Plaintiffs relied on this analysis to substantiate their contention
that no prudent fiduciary could conclude that such a drop would
be more harmful than “a late disclosure and/or catastrophic
event, such as the Deepwater Horizon explosion and spill, that [ ]
nearly eliminate[d] [their] investments.” BP P.L.C., 2017 WL
914995, at *5. However, the BP P.L.C. court characterized those
allegations as a “half-bubble off plumb” which “undervalue[d] the
negative effects of early disclosure and overstat[ed] its benefit”
because they failed to account for “a drop in the stock price and a
concomitant drop in the value of the stock already held by the
fund.” BP P.L.C., 2017 WL 914995, at *5 (emphasis original).
Notwithstanding a projected modest decline in the stock price
resulting from early disclosure, the court found that “a 5%
decline” applied to the value of stock already held by the fund
would result in a concomitant loss of “approximately $110 million
in value.” BP P.L.C., 2017 WL 914995, at *5. But here, Plaintiffs
fail to articulate any numeric or comparative basis from which a
prudent fiduciary could not conclude that early disclosure would
do more harm than good.
2

App-51
disclosure. “[G]iven the negative impact of disclosure,
a prudent fiduciary could very easily conclude that
such an action would do more harm than good.”
Graham, 2017 WL 1113358, at *5 (internal citation,
emphasis, and alterations omitted); BP P.L.C., 2017
WL
914995,
at
*5
(plaintiffs
“arguably
underestimate[] the extent of the stock drop” because
they fail to consider whether “an unusual disclosure
by ERISA fiduciaries could ‘spook’ the market, causing
a more significant drop in price.”); Wilson v. Edison
Int’l, Inc., 2016 WL 7469601, at *11 (C.D. Cal. July 6,
2016) (A “prudent fiduciary may consider that, if he
erred in sparking market fears the decline could be far
worse than what was actually warranted, and a
prudent fiduciary would not so act.”). “This is
particularly true where an unusual disclosure outside
the securities laws’ normal reporting regime could
spook the market, causing a more significant drop in
price than if the disclosure were made through the
customary procedures.” Graham, 2017 WL 1113358,
at *5. And in the context of this case, a prudent
fiduciary may have considered whether a significant
stock drop and its attendant publicity could spook
potential buyers, especially during a time when IBM
was struggling to attract serious offers for its
Microelectronics business. (Compl. ¶ 60.)
Plaintiffs contend that no prudent fiduciary could
have concluded that earlier disclosure would have
done more harm than good, and urge this Court to
take them at their word at this juncture in the
litigation. But the whole point of Dudenhoeffer was to
weed out meritless claims based on nothing more than
Plaintiffs’ ipse dixit assertions, and to encourage
“careful judicial consideration” of alternative actions

App-52
predicated on context-specific allegations that a
prudent fiduciary under circumstances then
prevailing would have weighed. Here, Plaintiffs give
short shrift to Dudenhoeffer’s demands, only alleging
in conclusory fashion that “in weighing harm versus
good, [Defendants] should have concluded that [ ] a
disclosure . . . would, in this case, be less harmful than
waiting for the disclosure to happen through some
other mechanism.” (Compl. ¶ 118.)
B. Halting Trading of IBM Stock
Plaintiffs proffer a second alternative—that
Defendants, who had the authority to issue new
investment guidelines for the Plan, should have
restricted new purchases and sales in the Fund.
(Compl. ¶¶ 120-130.) While the Complaint sets forth a
plausible reason as to why this alternative was
consistent with the securities laws (and would not
constitute insider trading), it fails to allege that a
prudent fiduciary could not have concluded that
freezing stock purchases or sales would do more harm
than good.
Plaintiffs gloss over the context-specific factors at
play during the Class Period that a prudent fiduciary
could have considered in determining whether halting
the trading of IBM stock would do more harm than
good. They reference on multiple occasions that the
divestiture announcement caused a 7% decline in the
stock value, and that Defendants were well-positioned
to protect Plan participants from overpaying or
provide them the opportunity to allocate their money
toward other prudent alternative investment options
under the Plan. (Compl. ¶¶ 129-130.) But these are
the type of “naked assertions [ ] analogous to those the

App-53
Supreme Court found insufficient in Amgen. Target,
2017 WL 3267708, at *17.
Moreover, the Complaint overlooks the possibility
that halting trades “could send mixed signals,” such as
diminished confidence in IBM stock, “causing a drop
in stock price” that could have done more harm than
good to the Fund. Target, 2017 WL 3267708, at *17; In
re Idearc ERISA Litig., 2016 WL 7189980, at *5 (N.D.
Tex. Feb. 26, 2016) (complaint “does not address
whether a prudent fiduciary might be concerned about
other, more indirect effects” such as the possibility
that the market “might take a plan’s freeze of stock
purchases as a sign that insider fiduciaries viewed the
employer’s stock as a bad investment.”); In re Pilgrim’s
Pride Stock Inv. Plan ERISA Litig., 2016 WL 8814356,
at *4 (E.D. Tex. Aug. 19, 2016) (“[S]imply terminating
the Plaintiffs’ option to invest in company stock would
likely have signaled the market.”). The Complaint
does not clearly articulate a counter narrative as to
why a prudent fiduciary would not have viewed this
alternative as doing more harm than good.
C. Purchasing a Hedging Product
Finally, the Complaint asserts that purchasing a
low-cost hedging product to offset any losses resulting
from precipitous decline in stock price would not have
done more harm than good. Plaintiffs allege that, in
January 2013, Defendants were offered the option to
“provide protection to Plan participants who were
invested in IBM stock against the risk of an IBM stock
price decline,” but they rejected such a proposal after
“virtually no consideration.” (Compl. ¶ 131.) The
Complaint also describes these “available hedging
products” as low-cost alternatives “requir[ing] annual

App-54
cash deposits of 1-2%.” (Compl. ¶ 134.) Absent any
losses triggering the hedge, “refunds of over half of the
amount of annual contributions” would put the “cost
of participation down to 0.10% per year.” (Compl.
¶ 134.)
Beyond those allegations, however, the Complaint
adds only surplusage to the contention that a hedging
product would have been a better option than doing
nothing. Defendants, as ESOP fiduciaries, have no
duty to diversify since ESOPs, by their very nature,
are intended to encourage stock ownership in one
company. See Dudenhoeffer, 134 S. Ct. at 2467. But
even if they chose to diversify through a hedging
product, the Complaint alleges nothing about the
specific parameters of such a hedge. At least some
quantum of detail regarding the type, term length,
and conditions of the hedging product is required to
ascertain whether a prudent fiduciary during the
Class Period would have determined that it could not
do more harm than good to the Fund. Graham, 2016
WL 1113358, at *6 (finding allegations insufficient
where no details about whether the hedging product
was “a short position in [IBM] stock, an insurance
product, or something else”).
Plaintiffs give no consideration to the costs—and
harm to the Fund—that could have been incurred
from purchasing this generic hedging product. First,
depending on its parameters, the expense of obtaining
a hedge may have outweighed its benefit. There is no
telling how much the Fund would have been
reimbursed, or protected, had a devastating disclosure
such as the divestiture announcement triggered the
hedge. The point of highlighting these deficiencies,

App-55
however, is not that Plaintiffs were required to
account for every detail and contingency. It is to
underscore the need for some detail about an
alternative action that a prudent fiduciary necessarily
would have had to weigh and explore in making the
ultimate determination that such action would not
have done more harm than good to the Fund. The
Complaint offers little from which this Court could
conceive of such a result.
Second, like the other alternative actions,
obtaining a hedging product may have required
disclosure. Even if this Court accepted Plaintiffs’
assurances that such a purchase would not require
disclosure through a filing with the SEC or
Department of Labor, Section 404 of ERISA mandates
the Plan Administrator to provide Plan participants
with notice of any “qualified change in investment
options.” See 29 U.S.C. § 1104(c)(4)(C). That would
include investing in a hedging product on behalf of a
Fund otherwise comprised of IBM stock. Such notice
could have prompted questions about why a hedging
product was necessary in the first place, “rais[ing]
concerns in the broader market regarding the health
of the Company or hasten the ultimately disclosure of
the alleged” misrepresentations. Martone v. Robb,
2017 WL 3326966, at *4 (W.D. Tex. Aug. 2, 2017).
More troubling, this alternative may have invited
Defendants to defraud a counterparty. If, for example,
an insurer required Defendants to submit information
about IBM, Defendants might have misrepresented
the value of the Microelectronics business to conceal
the reason they were seeking a hedge. That places a
prudent fiduciary in a Catch-22. On the one hand,

App-56
Plaintiffs complain that a prudent fiduciary should
not have concealed the purported fraud for as long as
it did; on the other, they suggest a hedge should have
been obtained under false pretenses to mitigate the
inevitable harm resulting from the concealed fraud.
This point further suggests that purchasing a hedge
during the circumstances then prevailing may not
have been a real possibility at all. And if it was—
assuming a counterparty agreed to provide the hedge
in spite of knowing about IBM’s impending
disclosure—a prudent fiduciary may have wondered
whether it had just purchased a product whose
benefits were illusory. These are all critical
considerations that would have factored into a
prudent fiduciary’s calculus.
Fidelity to Dudenhoeffer’s standard—to allege
that a prudent fiduciary could not conclude that the
alternative action would do more harm than good—
requires a balancing of the countervailing outcomes to
an alternative action under the circumstances. “In
other words, in weighing the ‘harm’ and ‘good’ that
would result from Plaintiffs’ propos[ed] [alternative
action]” such as early corrective disclosure, “a prudent
fiduciary would have considered the harmful prospect
of a stock drop that was imminent, substantial, and
likely to occur.” BP P.L.C., 2017 WL 914995, at *5. The
ultimate burden is on the plaintiff to give some
consideration to “other, more indirect effects” or the
risks attendant to taking any given alternative action.
Idearc, 2016 WL 7189980, at *6. Courts should not be
left guessing “whether a prudent fiduciary might have
perceived such a risk in this case.” Idearc, 2016 WL
7189980, at *6. And while Plaintiffs should not be
required to allege every conceivable positive or

App-57
negative outcome to the alternative, they may “not
simply allege that because a stock price drop was
inevitable, ipso facto almost any legal alternative
action aimed at softening losses to participants would
do more good than harm.” Target, 2017 WL 3267708,
at *18.
CONCLUSION
For the foregoing reasons, Defendants’ motion to
dismiss is granted. The Clerk of Court is directed to
terminate the motion pending at ECF No. 43, and
mark this case as closed.
Dated: September 29, 2017
New York, New York

SO ORDERED:
/s/ William H. Pauley III
William H. Pauley III, U.S.D.J.

App-58
Appendix F
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
________________
No. 15-cv-3781
________________
LARRY W. JANDER, RICHARD J. WAKSMAN, and all
other individuals similarly situated,
v.

Plaintiffs,

RETIREMENT PLANS COMMITTEE OF IBM, et al.,
Defendants,
________________
Filed: Sept. 7, 2017
________________
OPINION & ORDER
________________
WILLIAM H. PAULEY III, District Judge:
In October 2014, International Business
Machines Corp. (“IBM”) announced that it was taking
a $2.4 billion write-down in connection with
transferring its microelectronics business to another
company. Following that announcement—which
coincided with the disclosure of disappointing thirdquarter operating results—IBM’s share price dropped
by approximately 17%. Two separate cases pending
before this Court allege that Generally Accepted
Accounting Principles (“GAAP”) required IBM and its
corporate officers to record an earlier impairment of

App-59
its microelectronics assets, and that IBM’s stock price
was overvalued and fell as a result of the divestiture
announcement.
Jander and Waksman, on behalf of participants in
IBM’s 401(k) Plus Plan (the “Plan”) who invested in
the IBM Company Stock Fund (the “Fund”) between
January 21, 2014 and October 20, 2014, bring this
action under Section 502 of the Employee Retirement
Income Security Act (“ERISA”), 29 U.S.C. § 1132. The
Amended Complaint names IBM as a defendant, along
with the Retirement Plans Committee of IBM,
Richard Carroll (IBM’s Chief Accounting Officer)
Martin Schroeter (IBM’s CFO), and Richard Weber
(IBM’s general counsel).
Defendants move to dismiss the Amended
Complaint for failure to state a claim. Defendants’
motion to dismiss is granted with leave to replead.
BACKGROUND
The Plan is a defined-contribution benefit plan,
sponsored by IBM that permits employees to defer
some of their compensation into a number of various
investment options. One of those options is the Fund,
which is predominantly invested in IBM common
stock. (AC ¶¶ 3, 26.) Such plans are known as
employee stock ownership plans (or “ESOPs”).
Throughout the class period, both Schroeter and
Weber were members of the Retirement Plans
Committee; thus, each was a “named fiduciary” under
ERISA. (AC ¶¶ 22, 24-25.) As the Plan Administrator,
Defendant Carroll was also a named fiduciary.
Plaintiffs allege that IBM was a de facto fiduciary
because it had ultimate oversight and was empowered
to amend the Plan. (AC ¶¶ 21, 27-33.)

App-60
In a separate Opinion & Order, filed
simultaneously, this Court addressed substantially
similar factual allegations brought by shareholders
under Section 10(b) of the Securities Exchange Act.
See Int’l Assoc. of Heat and Frost Insulators and
Asbestos Workers Local #6 Pension Fund v.
International Business Machines Corporation,
15cv2492 (S.D.N.Y.) (“the Insulators Securities
Action”). Familiarity with that Opinion & Order is
presumed,
and
the
allegations
concerning
Microelectronics’ alleged impairment are not repeated
here. 1
LEGAL STANDARD
To withstand a motion to dismiss, pleadings
“must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
570 (2007)). Courts must accept as true all wellpleaded factual allegations. See Hooks v. Forman,
Holt, Eliades & Ravin, LLC, 717 F.3d 282, 284 (2d Cir.
2013). Additionally, courts may consider “legally
required public disclosure documents filed with the
SEC” as well as documents “incorporated into the
complaint by reference” or relied upon by the plaintiff
“in bringing suit.” ATSI Commc’ns, Inc. v. Shaar
Fund, Ltd., 493 F.3d 87, 98 (2d Cir. 2007). However,
“[t]hreadbare recitals of the elements of a cause of

1 Unlike the Insulators Securities Action, the Amended
Complaint in this case does not incorporate allegations from
confidential witnesses concerning IBM’s manufacturing plants.

App-61
action, supported by mere conclusory statements, do
not suffice.” Iqbal, 556 U.S. at 678.
DISCUSSION
Pursuant to 29 U.S.C. § 1104(a)(1)(B), “ERISA
imposes an obligation on fiduciaries to ‘act in a
prudent manner under the circumstances then
prevailing,’ a standard that eschews hindsight and
focuses instead on the ‘extent to which plan fiduciaries
at a given point in time reasonably could have
predicted the outcome that followed.’” In re Lehman
Bros. Sec. & ERISA Litig., 113 F. Supp. 3d 745, 754
(S.D.N.Y. 2015) (quoting Pension Benefit Guar. Corp.
v. Morgan Stanley Inv. Mgmt., Inc., 712 F.3d 705, 716
(2d Cir. 2013)). Plaintiffs allege that Defendants failed
to prudently and loyally manage the Plan’s assets, and
failed to adequately monitor the Plan’s fiduciaries.
Specifically, they argue that once Defendants learned
that IBM’s stock price was artificially inflated,
Defendants should have either disclosed the truth
about Microelectronics’ value or issued new
investment guidelines temporarily freezing further
investments by the Fund in IBM stock.
In support of their motion to dismiss, Defendants
argue, among other things, that: (1) Plaintiffs fail to
plead that the Microelectronics assets were impaired;
(2) IBM was not a fiduciary; (3) Plaintiffs’ proposed
alternative actions fail to satisfy the standard set forth
in Fifth Third Bancorp v. Dudenhoeffer, 134 S. Ct.
2459 (2014) and its progeny; and (4) the “duty to
monitor” claim is derivative of Plaintiffs’ underlying
claims.

App-62
I.

Impairment of Microelectronics’ Assets

Both parties incorporate the arguments made in
the
Insulators
Securities
Action concerning
Defendants’ alleged obligation to write-down
Microelectronics’ value under GAAP. In Insulators,
this Court found that plaintiffs had plausibly alleged
a GAAP violation, but failed to sufficiently allege
scienter as required by the Private Securities
Litigation Reform Act and Federal Rule of Civil
Procedure 9(b). However, “allegations similar to fraud
do not implicate Rule 9(b) where ‘the gravamen of the
claim is grounded in ERISA.’” In re Polaroid ERISA
Litig., 362 F. Supp. 2d 461, 470 (S.D.N.Y. 2005)
(quoting Rankin v. Rots, 278 F. Supp. 2d 853, 866
(E.D. Mich. 2003)); see also In re Bear Stearns
Companies, Inc. Secs., Derivative, & Employee Ret.
Income Sec. Act (Erisa) Litig., No. 08-md-1963 (RWS),
2009 WL 50132, at *4 (S.D.N.Y. Jan. 5, 2009) (noting
that unlike securities fraud cases, ERISA cases are
not governed by the PSLRA). Thus, for purposes of
evaluating the Amended Complaint in this action, this
Court need not consider whether Plaintiffs have
alleged, with particularity, that “the failure to take a
write-down amounted to highly unreasonable conduct
which represents an extreme departure from the
standards of ordinary care.” Plumbers & Steamfitters
Local 773 Pension Fund v. Canadian Imperial Bank of
Commerce, 694 F. Supp. 2d 287, 301 (S.D.N.Y. 2010)
(quotations, citations, and alterations omitted).
Plaintiffs allege that the Plan fiduciaries “knew
that IBM’s stock price had been artificially inflated by
undisclosed material facts,” namely that the
“Microelectronics business was hemorrhaging money

App-63
and that IBM could not sell it without having to pay
another company $1.5 billion to take the failing
business off its hands.” (AC ¶¶ 8, 10.) Specifically,
Plaintiffs allege that: (1) Schroeter, as CFO, was a
Sarbanes-Oxley co-signatory of IBM’s SEC filings and
made many of the allegedly misleading statements; (2)
Weber played a central role in preparing IBM’s
financial reporting; and (3) Carroll was the most
senior accounting officer at IBM with intimate
knowledge of Microelectronics’ financial condition.
While such allegations are insufficient to allege
scienter under the PSLRA, in view of the lower
pleading standards applicable to an ERISA action,
Plaintiffs have plausibly pled that IBM’s
Microelectronics unit was impaired and that the Plan
fiduciaries were aware of its impairment.
II. IBM as Fiduciary
In ERISA cases, “[a] threshold question is
whether each defendant acted as a plan fiduciary.” In
re Bank of Am. Corp. Sec., Derivative, & Employee Ret.
Income Sec. Act (ERISA) Litig., 756 F. Supp. 2d 330,
346 (S.D.N.Y. 2010) (citing Pegram v. Herdrich, 530
U.S. 211, 226 (2000)). Fiduciaries include both “named
fiduciaries” as well as “anyone else who exercises
discretionary control or authority over the plan’s
management, administration, or assets.” Mertens v.
Hewitt Assocs., 508 U.S. 248, 251 (1993) (internal
citations omitted). Fiduciaries of the latter type are
referred to as “de facto fiduciaries.” See In re AOL
Time Warner, Inc. Sec. & ERISA Litig., No. 02-cv08853, 2005 WL 563166, at *4 n.5 (S.D.N.Y. Mar. 10,
2005).

App-64
Plaintiffs allege that IBM was a de facto fiduciary
because it had ultimate oversight and was empowered
to amend the Plan. But courts routinely reject “[s]uch
bare legal conclusions” as “insufficient to state a claim
against a purported ERISA fiduciary.” In re
JPMorgan Chase & Co. ERISA Litig., No. 12-cv-04027
(GBD), 2016 WL 110521, at *3 (S.D.N.Y. Jan. 8, 2016)
(“Plaintiffs have pleaded no facts to support the
allegation that JPMorgan was a de facto Plan
fiduciary. They have made only the conclusory
allegation that JPMorgan was such a fiduciary
because it has discretionary authority and control
regarding the administration and management of the
Plan[] and its assets.”). See also In re Bank of Am.
Corp. Secs., Derivative, & Employee Ret. Income Sec.
Act (ERISA) Litig., 756 F. Supp. 2d 330, 346-48
(S.D.N.Y. 2010) (rejecting as insufficient allegations
that the defendant created the ESOP, selected its
terms, executed the trust documents, exercised control
over the members of the plan committee, and
appointed the trustee); In re Citigroup ERISA Litig.,
No. 07-cv-9790, 2009 WL 2762708, at *15 (S.D.N.Y.
Aug. 31, 2009) (“[T]he allegation that [a defendant]
had the authority to hire and fire some of its named
fiduciaries . . . is insufficient to show that [the
defendant] exerted control over its employees’
fiduciary responsibilities.”), aff’d, In re Citigroup
ERISA Litig., 662 F.3d 128 (2d Cir. 2011). Plaintiffs
therefore do not sufficiently plead that IBM was a de
facto fiduciary.

App-65
III. Alleged Alternative Actions in view of
Dudenhoeffer and its Progeny
In Dudenhoeffer, the Supreme Court rejected the
presumption—previously applied by the Second
Circuit—that ESOP fiduciaries who invested their
plans’ assets in the employer’s stock were acting in
accord with ERISA. See Rinehart v. Lehman Bros.
Holdings Inc., 817 F.3d 56, 64 (2d Cir. 2016) (citing
Dudenhoeffer, 134 S. Ct. at 2463). The Court then
explained that “allegations that a fiduciary should
have recognized from publicly available information
alone that the market was over- or undervaluing a
stock” were “implausible as a general rule.”
Dudenhoeffer, 134 S. Ct. at 2471 (emphasis added).
Defendants attempt to frame this action as falling into
that category, citing publicly available news articles
indicating that Microelectronics was unprofitable and
that IBM was having difficulty selling it. But these
arguments about what the market “knew” are not
derived from the Amended Complaint. Moreover, they
are essentially indistinguishable from Defendants’
loss causation arguments, which courts have held are
generally inappropriate for resolution on a motion to
dismiss. See In re Bear Stearns Companies, Inc. Secs.,
Derivative, & ERISA Litig., 763 F. Supp. 2d 423, 507
(S.D.N.Y. 2011) (“[A]t the motion to dismiss stage, [a
c]omplaint need not rule out all competing theories for
the drop in . . . stock price; that is an issue to be
determined by the trier of fact on a fully developed
record.”). Regardless, Plaintiffs’ allegations clearly
focus on nonpublic information allegedly known by
Defendants. (See, e.g., AC ¶ 79 (“Throughout the Class
Period, defendants were aware of these misleading
statements and IBM’s failures to disclose the truth

App-66
about its Microelectronics business. Yet defendants
did nothing to act upon that knowledge to protect the
retirement savings of the Plan participants to whom
they owed their fiduciary duties.”)).
Dudenhoeffer also set forth the pleading standard
for cases in which fiduciaries allegedly “behaved
imprudently by failing to act on the basis of nonpublic
information that was available to them because they
were . . . insiders.” Dudenhoeffer, 134 S. Ct. at 247172. For such claims, “[p]laintiffs must satisfy two
requirements to state a claim for breach of the duty of
prudence on the basis of inside information.” In re
JPMorgan Chase & Co. Erisa Litig., No. 12 CIV. 04027
(GBD), 2016 WL 110521, at *3 (S.D.N.Y. Jan. 8, 2016).
Thus, plaintiffs must plausibly allege: (1) “an
alternative action that the defendant could have taken
that would have been consistent with the securities
laws,” and (2) “that a prudent fiduciary in the same
circumstances [as Defendants] would not have viewed
[the alternative action] as more likely to harm the
fund than to help it.” Dudenhoeffer, 134 S. Ct. at 2472.
A. Alternative Actions
Plaintiffs allege that once Defendants learned
that IBM’s stock price was artificially inflated,
Defendants should have either disclosed the truth
about Microelectronics’ value or issued new
investment guidelines that would temporarily freeze
further investments in IBM stock. Defendants argue
that the former proposed alternative action—the
issuance of “corrective disclosures”—would conflict
with the securities laws.
“The securities laws create a system of periodic
rather than continual disclosures.” Higginbotham v.

App-67
Baxter Int’l, Inc., 495 F.3d 753, 760 (7th Cir. 2007); see
also In re Turkcell Iletisim Hizmetler A.S. Secs. Litig.,
202 F. Supp. 2d 8, 13 (S.D.N.Y. 2001) (“The disclosure
structure set out by the SEC and the case law
recognizes how unworkable and potentially
misleading a system of instantaneous disclosure
out[side] the normal reporting periods would be.”). In
Dudenhoeffer, the Court recognized the possibility
that the issuance of corrective disclosures (or the
decision to alter trading strategies in view of inside
information) could be inconsistent with the securities
laws, explaining that courts should consider: (1) “that
the duty of prudence, under ERISA as under the
common law of trusts, does not require a fiduciary to
break the law”; and (2) “the extent to which an ERISAbased obligation either to refrain on the basis of inside
information from making a planned trade or to
disclose inside information to the public could conflict
with the complex insider trading and corporate
disclosure requirements imposed by the federal
securities laws or with the objectives of those laws.”
Dudenhoeffer, 134 S. Ct. at 2472-73. The Second
Circuit has also expressly “reject[ed] the argument
that fiduciaries have a duty to disclose nonpublic
information about the expected performance of the
employer’s stock.” Gearren v. The McGraw-Hill
Companies, Inc., 660 F.3d 605, 610 (2d Cir. 2011); see
also In re Lehman Bros. Secs. & ERISA Litig., 113 F.
Supp. 3d 745, 768 (S.D.N.Y. 2015) (concluding that
Dudenhoeffer did not abrogate the Second Circuit’s
“rejection of a duty to share nonpublic information
with plan beneficiaries”).
Defendants argue that the disclosure of any “realtime suspicions” that Microelectronics was overvalued

App-68
would have “conflict[ed] with a disclosure regime
designed to avoid imposing unsustainable burdens on
companies and to prevent investors from having to
wade through a continuous torrent of disclosures that
vary widely in significance and reliability.” (Defs’
Mem. of Law at 19.) But Plaintiffs are not suggesting
“real time” disclosure of suspicions. The Amended
Complaint does not imply that any of the Defendants
should have engaged in immediate ad-hoc disclosures
regarding the value of Microelectronics unit. Rather,
the Amended Complaint catalogues a number of
allegedly incorrect disclosures made under the
Securities Exchange Act’s disclosure regime (see, e.g.,
AC ¶ 49 (alleging that the February 25, 2014 Form 10K incorrectly asserted that long-lived assets are
properly tested for impairment), and further alleges
that the Defendants were “senior corporate officers
with direct responsibility” for such disclosures (AC
¶¶ 32, 34.) Accordingly, drawing all inferences in
Plaintiffs’ favor, the Amended Complaint alleges that
Defendants were—prior to the end of the proposed
class period—in a position to have directed the
issuance of corrected statements regarding the
valuation of IBM’s Microelectronics unit that would
have been entirely consistent with their obligations
under federal securities laws.
B. Harm of the Alternative Actions
Although Plaintiffs’ proposed alternative actions
would not necessarily conflict with the securities laws,
the Amended Complaint fails to satisfy the second
prong of Dudenhoeffer’s alternative-action test.
Dudenhoeffer recognized the possibility that prudent
fiduciaries
could
“conclude[]
that
stopping

App-69
purchases—which the market might take as a sign
that insider fiduciaries viewed the employer’s stock as
a bad investment—or publicly disclosing negative
information would do more harm than good to the fund
by causing a drop in the stock price and a concomitant
drop in the value of the stock already held by the
fund.” Dudenhoeffer, 134 S. Ct. at 2473. Thus, a
complaint must contain “facts and allegations” which
“‘plausibly allege[]’ that a prudent fiduciary in the
same position ‘could not have concluded’ that the
alternative action ‘would do more harm than good.’”
Amgen Inc. v. Harris, 136 S. Ct. 758, 760 (2016)
(emphasis added) (quoting Dudenhoeffer, 134 S. Ct. at
2473.) Two recent cases in this Circuit confirm that
this is a highly exacting standard which is difficult to
satisfy.
In Rinehart v. Lehman Bros. Holdings Inc.—a
case in which an ESOP invested in the stock of a
company only three months away from total
collapse—the Second Circuit affirmed the dismissal of
ERISA claims, noting that “[a] prudent fiduciary could
have concluded that divesting Lehman stock, or
simply holding it without purchasing more, ‘would do
more harm than good.’” Rinehart, 817 F.3d 56, 68 (2d
Cir. 2016) (quoting Amgen, 136 S. Ct. at 760.) As the
district judge in that case recognized, “divesting the
[ESOP] of Lehman stock would have accelerated
Lehman’s collapse and reduced the Plan’s value.” In re
Lehman Bros., 113 F. Supp. 3d at 762-63. Likewise, in
In re JPMorgan Chase & Co. Erisa Litig.—an ERISA
stock-drop case concerning JP Morgan’s alleged
concealment of extraordinarily risky trading by the socalled “London Whale”—the court rejected alternative
remedies identical to those proposed here, finding that

App-70
Dudenhoeffer’s “higher pleading standard” requires
“enough facts to plausibly allege that a prudent
fiduciary in Defendants’ circumstances would not
have believed that public disclosures of JPMorgan’s
purported misconduct were more likely to harm than
help the fund.” In re JPMorgan, 2016 WL 110521, at
*4.
Here, Plaintiffs proposed the same remedies
offered in Rinehart and In re JPMorgan. Like the
plaintiffs in those cases, they fail to plead facts giving
rise to an inference that Defendants “could not have
concluded” that public disclosures, or halting the Plan
from further investing in IBM stock, were more likely
to harm than help the fund. See Dudenhoeffer, 134 S.
Ct. at 2472. 2 Indeed, the In re JPMorgan court
considered and rejected the argument—asserted by
Plaintiffs
here—that
Dudenhoeffer’s
pleading
standard was not meant to apply to cases involving
allegations of an underlying fraud:
Plaintiffs’ allegations of fraud do not excuse
them from satisfying Dudenhoeffer. As here,
the complaint in Dudenhoeffer alleged that
certain ERISA fiduciaries, who were also
corporate insiders, knew inside information
In In re JPMorgan, the court recognized that halting an ESOP
from investing in the company’s stock necessarily “would have
required [the company] to disclose that information to the
public.” In re JPMorgan, 2016 WL 110521, at *3; see also Harris
v. Amgen, Inc., 788 F.3d 916, 925-26 (9th Cir. 2015)
(“[W]ithdrawal of the fund . . . is the worst type of disclosure: It
signals that something may be deeply wrong inside a company
but doesn’t provide the market with information to gauge the
stock’s true value) (Kozinski, J., dissenting from denial of
rehearing en banc).
2

App-71
indicating that the employer’s officers had
made material misstatements to the market
that inflated the price of the employer’s stock.
In re JPMorgan, 2016 WL 110521, at *4. Likewise,
Plaintiffs’ argument that delay in disclosing an
alleged fraud always harms investors in the Plan is
“not particular to the facts of this case and could be
made by plaintiffs in any case asserting a breach of
ERISA’s duty of prudence.” In re JP Morgan, 2016 WL
110521, at *4; see also Higgenbotham, 495 F.3d at 761
(“[D]elay in correcting a misstatement does not cause
the loss; the injury to investors comes from the fraud,
not from a decision to take the time necessary to
ensure that the corrective statement is accurate.”).
Plaintiffs protest that such a reading of
Dudenhoeffer sets an impossibly high barrier for
ERISA breach-of-fiduciary duty cases concerning
ESOPs. This argument has some merit, as
Dudenhoeffer purportedly sought to abrogate a nearly
“impossible” pleading standard and replace it with one
that would “readily divide the plausible sheep from
the meritless goats.” 134 S. Ct. at 270. But the
Supreme Court also recognized “that ‘Congress sought
to encourage the creation of [ESOPs,] a purpose
that . . . may come into tension with ERISA’s general
duty of prudence.” Amgen, 136 S. Ct. at 759 (quoting
Dudenhoeffer, 136 S. Ct. at 7470.) Thus, while
Dudenhoeffer clarified the standard by which courts
need to evaluate such cases, it did not necessarily ease
the standard. Likewise, this Court is not convinced by
Plaintiffs’ argument that “[i]t cannot be that gardenvariety shareholders are entitled to more protection
than those to whom a fiduciary duty is owed.” (Opp’n

App-72
Br. at 13.) To the contrary, “ERISA and the securities
laws ultimately have differing objectives pursued
under entirely separate statutory schemes” such that
alleged securities law violations do not necessarily
trigger a valid ERISA claim. In re Lehman Bros., 113
F. Supp. 3d at 768-69 (“While the true objects of
Plaintiffs’ ire may well be the Lehman executives
whom Plaintiffs allege made material misstatements
regarding the financial health of the company to the
detriment of participants in the securities markets,
ERISA is not the statutory mechanism to pursue such
claims.”)
Simply put, Dudenhoeffer sets a highly
demanding pleading standard. Because the Amended
Complaint offers only a rote recitation of proposed
remedies without the necessary “facts and allegations
supporting [Plaintiffs’] proposition,” Amgen, 136 S. Ct.
at 760, it fails to meet that threshold.
In the alternative, Plaintiffs seek leave to file a
Second Amended Complaint that “would allow
plaintiffs to undertake the necessary due diligence to
provide facts of this greater specificity, including those
data
regarding
the
Fund’s
Class
Period
purchases . . . and possibly retaining an expert to
perform a quantitative analysis to show more
precisely how Plan participants are harmed in the
short and long term by purchasing Fund shares at
artificially high prices.” (Pls’ Sur-reply (ECF No. 26-1)
at 6). In view of Amgen’s express recognition that
removing a company’s stock from the list of
investment options could potentially satisfy
Dudenhoeffer, and in view of the Supreme Court’s
emphasis that “the stockholders are the masters of

App-73
their complaint,” 136 S. Ct. at 760, such a request is
entirely appropriate.
IV. Duty to Monitor
Plaintiffs’ duty to monitor claim is derivative of
their claims for breach of the duties of prudence and
loyalty. Because Plaintiffs have failed to allege an
underlying breach, the duty to monitor claim is
dismissed. See Rinehart v. Akers, 722 F.3d 137, 154
(2d Cir. 2013) (“[W]e affirm the court’s dismissal of
Plaintiffs’ duty to monitor claim as derivative of
Plaintiffs’ failed duty of prudence claim.”), abrogated
on other grounds by Dudenhoeffer, 134 S. Ct. 2459; see
also Rinehart v. Lehman Bros. Holdings Inc., 817 F.3d
56, 68 (2d Cir. 2016) (“[N]othing in [Dudenhoeffer]
changes our previous analysis dismissing Plaintiffs’
duty to monitor and duty to inform claims [holding
that] Plaintiffs cannot maintain a claim for breach of
the duty to monitor . . . absent an underlying breach
of the duties imposed under ERISA.”).

App-74
CONCLUSION
Defendants’ motion to dismiss is granted and the
Amended Complaint is dismissed without prejudice.
The Clerk of Court is directed to terminate any
pending motions and close this case.
Plaintiffs shall advise this Court within 30 days if
they intend to file a Second Amended Complaint, at
which point this Court would restore this case to the
docket.
Dated: September 7, 2016
New York, New York
SO ORDERED:
[handwritten: signature]
WILLIAM H. PAULEY III
U.S.D.J.

App-75
Appendix G
RELEVANT STATUTORY PROVISIONS
29 U.S.C. § 1104(a)
Fiduciary duties
(a) Prudent man standard of care
(1) Subject to sections 1103(c) and (d), 1342, and
1344 of this title, a fiduciary shall discharge his
duties with respect to a plan solely in the interest
of the participants and beneficiaries and-(A) for the exclusive purpose of:
(i) providing benefits to participants and
their beneficiaries; and
(ii) defraying reasonable expenses of
administering the plan;
(B) with the care, skill, prudence, and
diligence under the circumstances then
prevailing that a prudent man acting in a like
capacity and familiar with such matters
would use in the conduct of an enterprise of a
like character and with like aims;
(C) by diversifying the investments of the
plan so as to minimize the risk of large losses,
unless under the circumstances it is clearly
prudent not to do so; and
(D) in accordance with the documents and
instruments governing the plan insofar as
such documents and instruments are
consistent with the provisions of this
subchapter and subchapter III.

App-76
(2) In the case of an eligible individual account
plan (as defined in section 1107(d)(3) of this title),
the diversification requirement of paragraph
(1)(C) and the prudence requirement (only to the
extent that it requires diversification) of
paragraph (1)(B) is not violated by acquisition or
holding of qualifying employer real property or
qualifying employer securities (as defined
in section 1107(d)(4) and (5) of this title).
29 U.S.C. § 1107
Limitation with respect to acquisition and
holding of employer securities and employer
real property by certain plans
(a) Percentage limitation
Except as otherwise provided
and section 1114 of this title:

in

this

section

(1) A plan may not acquire or hold-(A) any employer security which is not a
qualifying employer security, or
(B) any employer real property which is not
qualifying employer real property.
(2) A plan may not acquire any qualifying
employer security or qualifying employer real
property, if immediately after such acquisition the
aggregate fair market value of employer
securities and employer real property held by the
plan exceeds 10 percent of the fair market value
of the assets of the plan.
(3) (A) After December 31, 1984, a plan may not
hold any qualifying employer securities or
qualifying employer real property (or both) to

App-77
the extent that the aggregate fair market
value of such securities and property
determined on December 31, 1984, exceeds 10
percent of the greater of-(i)
the fair market value of the assets
of the plan, determined on December 31,
1984, or
(ii)
the fair market value of the assets
of the plan determined on January 1,
1975.
*

*

*

(b) Exception
(1) Subsection (a) of this section shall not apply to
any acquisition or holding of qualifying employer
securities or qualifying employer real property by
an eligible individual account plan.
*

*

*

(d) Definitions
For purposes of this section-(1) The term “employer security” means a security
issued by an employer of employees covered by the
plan, or by an affiliate of such employer. A
contract to which section 1108(b)(5) of this title
applies shall not be treated as a security for
purposes of this section.
(2) The term “employer real property” means real
property (and related personal property) which is
leased to an employer of employees covered by the
plan, or to an affiliate of such employer. For
purposes of determining the time at which a plan
acquires employer real property for purposes of

App-78
this section, such property shall be deemed to be
acquired by the plan on the date on which the plan
acquires the property or on the date on which the
lease to the employer (or affiliate) is entered into,
whichever is later.
(3) (A) The term “eligible individual account
plan” means an individual account plan
which is (i) a profit-sharing, stock bonus,
thrift, or savings plan; (ii) an employee stock
ownership plan; or (iii) a money purchase
plan which was in existence on September 2,
1974, and which on such date invested
primarily in qualifying employer securities.
Such term excludes an individual retirement
account or annuity described in section 408 of
Title 26.
(B) Notwithstanding subparagraph (A), a
plan shall be treated as an eligible individual
account plan with respect to the acquisition
or holding of qualifying employer real
property or qualifying employer securities
only if such plan explicitly provides for
acquisition and holding of qualifying
employer securities or qualifying employer
real property (as the case may be). In the case
of a plan in existence on September 2, 1974,
this subparagraph shall not take effect until
January 1, 1976.
(C) The term “eligible individual account
plan” does not include any individual account
plan the benefits of which are taken into
account in determining the benefits payable

App-79
to a participant under any defined benefit
plan.
*

*

*

(5) The term “qualifying employer security”
means an employer security which is-(A) stock,
(B) a marketable obligation (as defined in
subsection (e)), or
(C) an interest in a publicly traded
partnership (as defined in section 7704(b) of
Title 26), but only if such partnership is an
existing partnership as defined in section
10211(c)(2)(A) of the Revenue Act of 1987
(Public Law 100-203).
After December 17, 1987, in the case of a plan other
than an eligible individual account plan, an employer
security described in subparagraph (A) or (C) shall be
considered a qualifying employer security only if such
employer security satisfies the requirements of
subsection (f)(1).
(6) The term “employee stock ownership plan”
means an individual account plan-(A) which is a stock bonus plan which is
qualified, or a stock bonus plan and money
purchase plan both of which are qualified,
under section 401 of Title 26, and which is
designed to invest primarily in qualifying
employer securities, and
(B) which meets such other requirements as
the Secretary of the Treasury may prescribe
by regulation.

App-80
*

*

*

29 U.S.C. §1108(c)(3)
Exemptions from prohibited transactions
(c) Fiduciary benefits and
prohibited by section 1106

compensation

not

Nothing in section 1106 of this title shall be construed
to prohibit any fiduciary from-*

*

*

(3) serving as a fiduciary in addition to being an
officer, employee, agent, or other representative of
a party in interest.
29 U.S.C. §1109(a)
Liability for breach of fiduciary duty
(a) Any person who is a fiduciary with respect to a plan
who breaches any of the responsibilities, obligations,
or duties imposed upon fiduciaries by this subchapter
shall be personally liable to make good to such plan
any losses to the plan resulting from each such breach,
and to restore to such plan any profits of such fiduciary
which have been made through use of assets of the
plan by the fiduciary, and shall be subject to such
other equitable or remedial relief as the court may
deem appropriate, including removal of such
fiduciary. A fiduciary may also be removed for a
violation of section 1111 of this title.
29 U.S.C. §1132(a)(2)-(3)
Civil enforcement
(a) Persons empowered to bring a civil action
A civil action may be brought-*

*

*

App-81
(2) by the Secretary, or by a participant,
beneficiary or fiduciary for appropriate relief
under section 1109 of this title;
(3) by a participant, beneficiary, or fiduciary (A) to
enjoin any act or practice which violates any
provision of this subchapter or the terms of the
plan, or (B) to obtain other appropriate equitable
relief (i) to redress such violations or (ii) to enforce
any provisions of this subchapter or the terms of
the plan;
*

*

*

